No. _______

In The

Supreme Court of the United States
THOMAS CHARLES HORNE, ATTORNEY GENERAL;
KATHLEEN A. WINN,
Petitioners,
V.

SHEILA SULLIVAN POLK, IN HER OFFICIAL CAPACITY
AS THE YAVAPAI COUNTY ATTORNEY,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

APPENDIX

DENNIS I. WILENCHIK
Counsel of Record
JOHN D. WILENCHIK
WILENCHIK & BARTNESS, P.C.
2810 N. Third St.
Phoenix, AZ 85004
(602) 606-2810
diw@wb-law.com
jackw@wb-law.com
admin@wb-law.com
Counsel for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

APPENDIX TABLE OF CONTENTS
Memorandum, United States Court of Appeals
for the Ninth Circuit Case No. 19-15942 (June
25, 2020) ................................................................... A1
Order and Judgment, United States District
Court of Arizona Granting Defendant’s Motion
for Reconsideration (April 17 and 18, 2019) ........... A5
Brian M. McIntyre Final Administrative
Decision (July 5, 2017) ........................................... A13
Arizona Supreme Court Decision, 242 Ariz.
226, 294 P.3d 651 (May 25, 2017).......................... A17
Court of Appeals of Arizona Memorandum
Decision Affirming Published Decision, 02-2316, 2016 WL 706376 (App. 2016) ........................... A38
Maricopa County Superior Court, Minute
Entry, Case No.: LC2014-00255 (The
Honorable Patricia Starr) ...................................... A59
Administrative Law Judge Decision (April 14,
2014) ....................................................................... A74
Polk Order Requiring Compliance (October 17,
2013) ..................................................................... A117

A1
FILED
JUN 25 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT
THOMAS CHARLES
HORNE, Attorney
General Committee;
KATHLEEN WINN,

No. 19-15942
D.C. No. 3:18-cv08010-SPL

Plaintiffs-Appellants,
vs.
SHEILA SULLIVAN
POLK, in her official
capacity as the Yavapai
County Attorney,

MEMORANDUM*

Defendant-Appellee.

_______________________________________

This disposition is not appropriate for publication
and is not precedent except as provided by Ninth
Circuit Rule 36-3.
*

A2
Appeal from the United States District Court
for the District of Arizona
Steven Paul Logan, District Judge, Presiding
Seattle, Washington
Submitted May 4, 2020** Seattle, Washington
Before: KLEINFELD, W. FLETCHER, and
RAWLINSON, Circuit Judges.
Thomas
Horne
and
Kathleen
Winn
(“plaintiffs”) sued Sheila Polk under 42U.S.C. §
1983, alleging that Polk violated their due process
rights when, in her role as Yavapai County
Attorney, she served as both advocate and
adjudicator in an Arizona administrative action
brought against them. Below, Polk moved to dismiss,
arguing inter alia that she was entitled to judicial
immunity and that plaintiffs’ claim was timebarred. The district court ultimately held that Heck
v. Humphrey, 512 U.S. 477 (1994), did not apply,
and therefore accrual of plaintiffs’ cause of action
was not tolled pending the Arizona Supreme Court’s
decision that Polk had violated their due process
rights. See Horne v. Polk, 394 P.3d 651 (Ariz. 2017).
The district court also held that Polk was not
entitled to judicial immunity.
Plaintiffs appealed, and Polk cross-appealed
the judicial immunity determination. We have
jurisdiction under 28 U.S.C. § 1291, and we review
de novo a district court’s dismissal based on the
statute of limitations. Mills v. City of Covina, 921
F.3d 1161, 1165 (9th Cir. 2019). We affirm.
The applicable limitations period is two years.
See TwoRivers v. Lewis, 174 F.3d 987, 991 (9th Cir.

A3
1999); Ariz. Rev. Stat. § 12-542. “Under federal law,
a claim accrues when the plaintiff knows or has
reason to know of the injury which is the basis of
the action.” Klein v. City of Beverly Hills, 865 F.3d
1276, 1278 (9th Cir. 2017) (internal quotation marks
omitted).
Plaintiffs knew or had reason to know of their
injury when Polk, who rendered the final decision in
their administrative case, admitted in a brief to the
Arizona Court of Appeals that she was also
“involved with the prosecution of the case, by
assisting with the preparation and strategy.” That
brief was filed in February 2015. Yet the plaintiffs
did not bring their § 1983 claim until January 2018,
after their administrative case had been resolved
upon remand. Their claim was therefore not made
within two years of its accrual.
Plaintiffs argue that because Heck has been
applied in the context of § 1983 claims stemming
from prison disciplinary proceedings, which are
administrative in nature, it may therefore be
applied to the § 1983 claim stemming from their
administrative case. See Edwards v. Balisok, 520
U.S. 641, 646 (1997) (applying Heck in a prison
disciplinary context); see also Muhammad v. Close,
540 U.S. 749, 754 (2004) (characterizing “prison
disciplinary
proceedings”
as
“administrative
determinations”). Plaintiffs’ argument is overbroad.
Heck applies where there is an underlying criminal
conviction or sentence. Its limited extension involves
a species of administrative decisions that the
Supreme Court has acknowledged is similar to
criminal proceedings. See Edwards, 520 U.S. at 647
(analogizing the prison disciplinary petitioner in
question to a criminal defendant). Plaintiffs’

A4
administrative case, on the other hand, involved
only a monetary penalty.
Because we hold that plaintiffs’ § 1983 action
is time-barred, we do not reach the question
presented in Polk’s cross-appeal of the district
court’s decision on judicial immunity.
AFFIRMED.

A5
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
No. CV-18-08010-PCT-SPL
Thomas Horne, et al.,
Plaintiffs,
vs.
Sheila Sullivan Polk,
Defendant.
ORDER
Plaintiffs’ Thomas Horne and Kathleen Winn
(the “Plaintiffs”) filed suit against Yavapai County
Attorney Sheila Polk (the “Defendant”) alleging
violations of their due process rights pursuant to 42
U.S.C. § 1983. (Doc. 1) The defendant moved to
dismiss the Plaintiffs’ claims (Doc. 12), which the
Court denied on February 26, 2019. (Doc. 20) The
Plaintiff filed a motion for reconsideration (the
“Motion”) on March 11, 2109. (Doc. 21) For the
reasons set forth below, the Motion is granted.
Reconsideration
is
disfavored
and
“appropriate only rare circumstances.” WildEarth
Guardians v. United States Dep’t of Justice, 283 F.
Supp.3d 783, 795 n., 11 (D. Ariz. June 21, 2017); see
also Bergdale v. Countrywide Bank FSB, No. CV-128057-PCT-SMM, 2014 WL 12643162, at *2 (D. Ariz.
May 23, 2014) (“[Reconsideration] motions should
not be used for the purpose of asking a court to

A6
rethink what the court had already thought throughrightly or wrongly.”) A motion for reconsideration
will be granted only where the Court “(1) is
presented with newly discovered evidence, (2)
committed clear error or the initial decision was
manifestly unjust, or (3) if there is an intervening
change in controlling law.” Sch. Dist. No. 1J,
Multnomah Cty., Or. V. ACandS, Inc., 5 F.3d 1255,
1263 (9th Cir. 1993).
The Defendant requests for the Court to
reconsider its prior Order (Doc. 20) because the
Court incorrectly applied the standard for
determining when the Plaintiffs’ due process claim
accrued. (Doc. 21 at 5) The Defendant argues that
the Court incorrectly applied the standard for a
malicious prosecution claim instead of the standard
for a due process claim, which accrues at the time
due process is denied. (Doc. 21 at 5) The basis for the
Motion is derived from the Court’s statement that
“[i]I is well settled that a claim pursuant to 42
U.S.C. § 1983 brought on the basis of malicious
prosecution does not accrue until criminal
proceedings terminate in favor of the accused.” (Doc.
20 at 8) In support of this statement, the Court
followed it with a parenthetical stating that “the
Heck precedent applies to all plaintiffs’ civil rights
claims, and the statute of limitations begins when
the Arizona Supreme Court declines to review an
appeal.” (Doc 20 at 8)
Federal law determines when a federal civil
rights claim accrues. Wallace v. Kato, 549 U.S. 384
(2007) (stating “the accrual date of a § 1983 cause of

A7
action is a question of federal law that is not
resolved by reference to state law.”); Morales v. City
of Los Angeles, 214 F.3d 1151, 1154 (9th Cir. 2000).
Under federal law, a claim accrues “when the
plaintiff knows or has reason to know of the actual
injury” that is the basis of the cause of action.
Wallace, 549 U.S. at 384 (2007) (stating that accrual
occurs when the plaintiff has a complete and present
cause of action); Lukovski v. City & County of San
Francisco, 535 F.3d 1044, 1051 (9th Cir, 2008);
Hoesterey v. City of Cathedral City, 945 F.2d 317,
318 (9th Cir. 1991) (stating the general rule for the
accrual of 42 U.S.C. § 1983 claims is “a cause of
action generally accrues when a plaintiff knows or
has reason to know of the injury which is the basis of
his action.”). In a § 1983 action for a substantive due
process violation, the injury giving rise to the claim
is complete when there is an abuse of power by and
official acting under color of law that shocks the
conscience. Reiss v. Arizona Dep’t of Child Safety,
2018 WL 6067258, at 8 (D. Ariz. Nov. 20, 2018)
(citing City of Sacramento The Defendant argues
that the Plaintiffs’ due process claim accrued in May
2014 when the Defendant issued her final
administrative decision. (Doc. 21 at 4) Alternatively,
the Defendant argues that the Plaintiffs’ claim
accrued in February 2015 when the Defendant
stated that she was involved in both the prosecution
and adjudication of the case against the Plaintiffs.
(Doc. 21 at 4) In response to the Motion, the
Plaintiffs’ argued that the statute of limitations for
their due process claims did not begin until the
Plaintiffs’ appeals of the Defendant’s final

A8
administrative decision were completed because the
Plaintiffs could not have moved forward with the
present litigation until those appeals were fully
complete. (Doc. 27 at 4; Doc. 15 at 14-17) In support
of this argument, the Plaintiffs cited the Heck
precedent to argue that a statute of limitations
cannot begin to run until it is possible to file a
lawsuit. (Doc. 15 at 14)
In Heck v. Humphrey, the Supreme Court of
the United States held that a § 1983 claim for
damages is not cognizable when the basis for the §
1983 claim call into question the lawfulness of a
conviction. Heck v. Humphrey, 512 U.S. 477, 483
(1994). The Supreme Court used malicious
prosecution as an analogy and ultimately held that
“in order to recover damages for allegedly
unconstitutional conviction or imprisonment, or for
other harm caused by actions who unlawfulness
would render a conviction or imprisonment, or for
other harm caused by actions whose unlawfulness
would render a conviction or sentence invalid, a §
1983 plaintiff must prove that the conviction or
sentence has been reversed on direct appeal.” Heck,
512, U.S. at 487. Furthermore, “[a] claim for
damages bearing that relationship to a conviction or
sentence that has been so invalidated is not
recognizable under § 1983.” Id. However, Heck
applies only when there is an extant conviction.
Bradford, v. Scherschligt, 803 F.3d 382, 386 (9th Cir.
2005) stating that Heck tolling does not apply when
a plaintiff does not fact criminal charges); Printup v.
Dir., Ohio Dep’t of Job and Family Servs., 654 F.
App’x 781, 791 (6th Cir. 2016) (stating that Heck does

A9
not apply to cases that do not involve criminal
conviction).
It is undisputed that the Plaintiffs’ claim
arises out of the Defendant’s involvement in their
prosecution for violations of campaign finance laws.
(Doc. 12 at 12) However, the prosecution was
administrative in nature, and the exclusive remedy
for a violation of A.R.S § 16-924 is civil penalties,
Pacion v. Thomas, 236 P.3d 395, 396 (2010).
Throughout their response to the motion to dismiss
(Doc. 15), the Plaintiffs describe their claim as both
one for “unconstitutional prosecution” and “for
violation of due process.” (Doc. 15 at 15) However, it
is clear to the court that the Plaintiffs’ are bringing
their § 1983 claim on the basis of the Defendant’s
violation of their substantive due process rights.
Therefore, the Court erred in applying the Heck
precedent to determine when the Plaintiffs’’ § 1983
claim accrued.
The injury giving rise to a § 1983 claim is
complete when there is an abuse of power by an
official acting under color of law that shocks the
conscience. City of Sacramento, 523 U.S. at 846.
Therefore, the Plaintiffs’ § 1983 substantive due
process claim would have accrued upon the
Plaintiffs’ knowledge of the deprivation of their
constitutional interest. Reiss, 2018 WL 6067258 at 8
(citing City of Sacramento, 523 U.S. at 834). The
parties do not dispute that the applicable statute of
limitations period for the Plaintiffs’ § 1983 claim is
two years. (Doc. 12 at 14; Doc. 15 at 15);
Normandeau v. City of Phoenix, 516 F. Supp 2d
1054, 1065 (D. Ariz. 2005) (stating that in Arizona,

A10
the statute of limitations for actions pursuant to 42
U.S.C. § 1983 is two years).
The Defendant argues that the Plaintiffs’ had
knowledge of their injury on February 27, 2015,
when the Defendant filed her answer brief to the
Plaintiffs’ appeal of her final decision before the
Arizona Court of Appeals. (Doc. 12 at 15; Doc. 21 at
4) The Plaintiffs concede this fact in their response
to the Defendant’s motion to dismiss. (Doc. 15 at 2;
Doc. 1 at 2-3) Separately, both parties also argue
that, due to the administrative nature of the
proceedings against the Plaintiffs’, the Plaintiffs’
cause of action did not accrue until the agency made
a final decision. The Defendant argues that the final
decision she made in May 2014 started the clock for
statute of limitations purposes. (Doc. 21 at 4) The
Plaintiffs argue that the stature of limitations period
began in July of 2017 when the Plaintiffs received a
final judgment in their favor. (Doc. 15 at 15) Because
the Court finds that Heck tolling does not apply in
this case, the Court finds that the Plaintiffs became
aware of the Defendant’s abuse of power by
February 2015, at the latest, which is more than two
years prior to the Plaintiffs’ bringing their § 1983
claim. Therefore, the Court must find that the
Plaintiffs claim is time-barred because this action
was initiated in January 2018, more than two years
after the Plaintiffs’ had knowledge that their due
process rights had been violated by the Defendant.
Accordingly,
IT IS ORDERED that Defendant’s Motion for
Reconsideration (Doc. 21) is granted. IT IS
FURTHER ORDERED that the Court’s Order (Doc.
20) is vacated;

A11
IT IS FURTHER ORDERED that the Clerk of Court
shall terminate this action and enter judgment
accordingly.
Dated this 16th day of April, 2019

/s/ Stephen P. Logan
Honorable Steven P. Logan
United State District Judge

A12
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
No. CV-18-08010-PCT-SPL
Thomas Horne, et al.,
Plaintiffs,
vs.
Sheila Sullivan Polk,
Defendant.
JUDGMENT IN A CIVIL CASE
Decision by Court. This action came for
consideration before the Court. The issues have been
considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that pursuant
to the Court’s Order filed April 17, 2019, judgment is
entered in favor of defendant and against plaintiffs.
Plaintiffs to take nothing, and the complaint and
action are here by terminated.
Brian D. Karth_____________
District Court Executive /Clerk of Court
April 17, 2019

By s/E. Aragon______________
Deputy Clerk

A13
BRIAN M. McINTYRE
COCHISE COUNTY ATTORNEY
P.O. Drawer CA, Bisbee, Arizona 85603 Telephone
Number: (520) 432-8700
Attorney@cochise.az.gov
BY: BRIAN M. MCINTYRE, #019200, County
Attorney
Enforcement Officer appointed by the Attorney
General
OFFICE
OF
THE
YAVAPAI
COUNTY
ATTORNEY
CAMPAIGN FINANCE PROCEEDING
IN THE
OF,

MATTER Case No.: CV2020-051932

TOM
HORNE,
individually;
Tom
Horne for Attorney
General
Committee
(SOS
Filer 2010
00003);
KATHLEEN WINN,
individually; Business
Leaders for Arizona )
(SOS
Filer
2010
00375).

Final
Administrative
Decision
(Accepting
Recommendation
of
Administrative
Law
Judge Decision in Office
of
Administrative
Hearings Case 14F-001AAG Dated April 14, 2014
and
Rejecting
Order
Requiring
Compliance
Dated October 17, 2013)

FINAL DECISION AND ORDER

A14
On April 14, 2014, Administrative Law Judge
Tammy Eigenheer (''the ALI") issued her
Administrative Law Judge Decision (''the Decision")
in Arizona Office of Administrative Hearings Case
14F-001-AAG. The Decision recommends that the
Yavapai County Attorney's Order Requiring
Compliance, issued October 17, 2013, (''the Order")
be vacated. Brian M. McIntyre, Cochise County
Attorney and the appointed Enforcement Officer for
the Attorney General's Office, has reviewed the
Decision and the entire record in this matter.
Pursuant to A.R.S. §41-1092.0S(B), the Decision's
Findings of Facts and Conclusions of Law are
accepted and modified as reflected below.
Findings of Fact:
Findings of Fact ("FOF") 1- 108 are accepted.
For ease of reference, additional facts found from
review are sequentially numbered:
109. At 2:59 on October 20, 2010 Winn
emailed Murray referencing ''two very strong
personalities debating this moment". (FOF 27) The
evidence does not reveal any actual communication
between Winn and Home between the subsequent
3:00 p.m. e-mails about BLA's payment to LSG and
the 3:11 p.m. e-mail from Winn to Murray containing
a revised script and the statement "I think I
prevailed no mention of Tom thanks for what you
said. I believe this times out let me know." (FOF
28-30) Therefore, the record supports the conclusion
that those "strong personalities" did not include
Home.
110. The FBI's inaccurate and misleading

A15
summary of the conversations with Mr. Tatham and
subsequent inaccurate testimony regarding the
same, calls into question the reliability of other
hearsay statements offered. (FOF 50-55) The record,
unfortunately, supports a conclusion that the
investigation being conducted was not a search for
the truth, but rather, only intended to shore up
conclusions already drawn.
111. On October 27, 2010, Home forwarded
an email from Ryan Duchanne, an individual not
connected to the Home campaign, to Kathleen
Winn after a
failed attempt due to using an
incorrect email address. It is apparent from the email that Home did not know that at that point, an
additional $100,000 in funding had already been
secured by BLA. (FOF 38-44) This fact supports
the conclusion that the Horne campaign and BLA
were not in engaged in coordination. Further, it is
clear from the record that the email did not result in
any change in activity by BLA.
Conclusions of Law:
Conclusions of Law 1- 60 are accepted.
CONCLUSION
The final agency decision maker "should give
deference to the ALJ's credibility findings, [he] may
overrule these findings only if [he] finds evidence in
the record for so doing." Ritland v. Arizona State
Board of Medical Examiners, 213 Ariz. 187, ¶14
(App. 2006). "The agency must, however, afford
an ALJ's credibility findings greater weight than
other findings of fact more objectively discernible

A16
from the record. An agency may only depart from
those findings if substantial evidence supports such
departure." Id. at ¶ 8. In the present matter, the
AU found Winn and Home to be credible in their
testimony. This reviewer can find no substantial
evidence to overturn those findings. lndeed, if
anything, the record reveals further support for
those determinations.
Home and Winn certainly engaged in
communication during a time frame which would
cause any outside observer to cry foul. The record,
however, does not establish by a preponderance of
the evidence that this communication was illegal.
Both sides to this dispute present equally plausible
explanations as to what did or did not occur during
that communication. The party bearing the burden,
therefore, has failed to meet it. As a result, the
Decision's recommendation to vacate the Order
Requiring Compliance dated October 17, 2013 is
ACCEPTED as modified.
Pursuant to A.RS. §41-1092.0S(F), this is the
final administrative decision in this matter.
DATED this 5th day of July, 2017.
COCHISE COUNTY ATTORNEY
BY: /S/ BRIAN M. McINTYRE

A17
Horne v. Polk, 242 Ariz. 226 (2017)
394 P.3d 651, 765 Ariz. Adv. Rep. 16
242 Ariz. 226
Supreme Court of Arizona.
Thomas HORNE, individually and Thomas Horne
for Attorney General Committee (SOS Filer ID
2010 00003); Kathleen Winn, individually, and
Business Leaders of Arizona (SOS Filer ID 2010
00375), Plaintiffs/Appellants,
v.
Sheila Sullivan POLK, Yavapai County Attorney,
Defendant/Appellee.
No. CV-16-0052-PR
|
Filed May 25, 2017
Synopsis
Background: Attorney General, community
outreach director of Attorney General’s Office, and
two campaign committees appealed Special
Attorney General’s decision finding that they
violated campaign finance statutes by illegally
coordinating campaign expenditures, exceeding
contribution
limits,
and
collecting
illegal
contributions. The Superior Court, Maricopa
County, No. LC2014–000255, Crane McClennen, J.,
affirmed decision. Attorney General, director, and
committees appealed. The Court of Appeals,
Thompson, J., 2016 WL 706376, affirmed. Attorney
General, director, and committees sought further
review, which was granted.

A18
[Holding:] The Supreme Court, Bolick, J., held that
due process did not permit Special Attorney General
to issue initial decision finding violations of
campaign finance laws, to participate personally in
prosecution of the case before ALJ, and then to
make final agency decision that was subject to
deferential judicial review.
Vacated.
Procedural Posture(s): On Appeal.
**653 Appeal from the Superior Court in Maricopa
County, The Honorable Crane McClennen, Judge,
No. LC2014–000255. VACATED
Memorandum Decision of the Court of Appeals,
Division One, 1 CA–CV 14–0837, Filed Feb. 23,
2016. VACATED
Attorneys and Law Firms Dennis I. Wilenchik
(argued), Wilenchik & Bartness, P.C., Phoenix,
Attorneys for Thomas Horne and Tom Horne for
Attorney General Committee; Timothy A. La Sota
(argued), Timothy A. La Sota, PLC, Phoenix,
Attorneys for Kathleen Winn and Business Leaders
of Arizona
Sheila Sullivan Polk, Yavapai County Attorney,
Benjamin D. Kreutzberg (argued), Deputy County
Attorney, Prescott, Attorneys for Sheila Sullivan
Polk
Dominic E. Draye, Solicitor General, Jennifer M.
Perkins, Assistant Attorney General, Phoenix,
Attorneys for Amicus Curiae Arizona Solicitor
General

A19
Paul V. Avelar, Timothy D. Keller, Keith E. Diggs,
Institute for Justice, Tempe, Attorneys for Amicus
Curiae Institute for Justice
JUSTICE BOLICK authored the opinion of the
Court, in which CHIEF JUSTICE BALES, VICE
CHIEF
JUSTICE
PELANDER,
JUSTICE
BRUTINEL,
and
JUDGES
ECKERSTROM,
HOWARD, and WRIGHT joined.*
Opinion
JUSTICE BOLICK, opinion of the Court:
*228 ¶ 1 In this case involving substantial
consequences for alleged violations of campaign
finance laws, we hold that due process does not
permit the same individual to issue the initial
decision finding violations and ordering remedies,
participate personally in the prosecution of the case
before an administrative law judge (“ALJ”), and
then make the final agency decision that will receive
only deferential judicial review.
I. BACKGROUND
¶ 2 On June 27, 2013, acting pursuant to A.R.S. §
16–924(A) (2011) repealed by 2016 Ariz. Sess. Laws,
ch. 79, § 10 (2d Reg. Sess.), Arizona Secretary of
State Ken Bennett determined that there was
reasonable cause to believe that Attorney General
Thomas Horne, Kathleen Winn, who served as
Community Outreach Director of the Attorney
General’s Office, and two campaign committees
(collectively “Appellants”) had violated Arizona
campaign finance laws, specifically A.R.S. §§ 16–

A20
901(14), –905, –913, –915, –917, and –919. The
Secretary accordingly notified Solicitor General
Robert L. Ellman, who appointed Sheila Polk as
Special Arizona Attorney General because the
Attorney General and one of his staffers were
subjects of the notice, and “an appearance of
impropriety would arise if the Arizona Attorney
General’s Office investigated the alleged campaign
finance violation.”
¶ 3 Following investigation, pursuant to A.R.S. §
16–924(A), Polk issued a twenty-five-page order
finding that Appellants had violated Arizona
campaign finance statutes by illegally coordinating
campaign expenditures, exceeding contribution
limits, and collecting illegal contributions. Polk
directed Appellants to amend their campaign
finance reports and ordered Horne and his
campaign
to
refund
contributions
totaling
approximately $397,000. The order stated that if the
**654 *229 Appellants failed to take the specified
actions within twenty days, “this Office will issue an
Order Assessing a Civil Penalty pursuant to A.R.S.
§ 16–924(B). The violation of the contribution limit
carries a civil penalty of three times the amount of
money of the violation. A.R.S. § 16–905(J).”
¶ 4 Appellants requested an administrative hearing
pursuant to A.R.S. § 16–924(A). After a three-day
evidentiary hearing, the ALJ issued a decision
finding that Polk had failed to prove illegal
coordination and recommending that Polk vacate
her compliance order.

A21
¶ 5 Pursuant to A.R.S. § 41–1092.08(B) (2000), Polk
issued her final administrative decision, which
rejected the ALJ recommendation and affirmed her
prior compliance order. Polk accepted all of the
ALJ’s findings of fact and rejected in part the ALJ’s
conclusions of law.
¶ 6 Appellants appealed to the Maricopa County
Superior Court, challenging Polk’s decision and the
constitutionality of Arizona’s campaign contribution
limits. Neither side requested an evidentiary
hearing. The court affirmed Polk’s decision, finding
that substantial evidence supported it and rejecting
challenges to the statutory scheme.
¶ 7 Appellants appealed to the court of appeals.
Polk’s answering brief acknowledged a fact
previously unknown to Appellants: “Admittedly, the
Yavapai County Attorney was involved with the
prosecution of the case, by assisting with the
preparation and strategy.” Appellants argued that
Polk’s role as advocate and adjudicator violated
their due process rights.
¶ 8 The court of appeals affirmed the superior court,
concluding that “[b]ecause there was evidence in the
record supporting Polk’s finding that Horne and
Winn coordinated ..., we find no abuse of discretion.”
Horne v. Polk, 1 CA–CV 14–0837, at *5 ¶ 12, 2016
WL 706376 (Ariz. App. Feb. 23, 2016). The court
rejected Appellants’ due process claim, relying on
Comeau v. Arizona State Board of Dental
Examiners, 196 Ariz. 102, 108 ¶ 26, 993 P.2d 1066,
1072 (App. 1999) (“An agency is permitted to
combine
some
functions
of
investigation,

A22
prosecution, and adjudication unless actual bias or
partiality is shown.”). Horne, 1 CA–CV 14–0837, at
*5–6 ¶ 13. The court concluded, “In this case,
appellants make no showing of actual bias.
Accordingly, their due process rights were not
violated.” Id. at *6 ¶ 13.
¶ 9 We granted review of the due process issue,
which is of statewide importance and likely to recur.
We have jurisdiction under article 6, section 5(3) of
the Arizona Constitution and A.R.S. § 12–120.24.
Because we consider only the constitutionality of the
procedure under which Appellants’ statutory
violations were determined, our review is de novo.
Gallardo v. State, 236 Ariz. 84, 87 ¶ 8, 336 P.3d 717,
720 (2014).
II. DISCUSSION
A. Statutory Scheme
¶ 10 Arizona’s Administrative Procedure Act
(“APA”), title 41, chapter 6, is generally silent about
how agency charges or complaints are initiated. In
the context of campaign finance violations, § 16–
924(A) prescribes that where there is “reasonable
cause to believe that a person is violating any
provision of this title” in connection with a statewide
office, the “secretary of state shall notify the
attorney general.” The Attorney General, in turn,
“may serve on the person an order requiring
compliance with that provision. The order shall
state with reasonable particularity the nature of the
violation and shall require compliance within
twenty days from the date of issuance of the order.”
Id.

A23
¶ 11 Section 16–924(A) further provides that the
alleged violator has twenty days to request a
hearing pursuant to the APA, for which
administrative adjudication procedures are set forth
in A.R.S. § 41–1092 et seq. Once the ALJ issues a
decision, “the head of the agency, executive director,
board or commission may review the decision and
accept, reject or modify it.” A.R.S. § 41–1092.08(B).
Where an agency has a board or commission whose
members are appointed by the governor, it “may
review the decision of the agency head ... and make
the final administrative decision.” A.R.S. § 41–
1092.08(C).
¶ 12 Ordinarily, nothing in the APA would
necessitate having an agency head make both **655
*230 an initial and final legal determination. Here,
the interplay between the campaign finance statute
and the APA placed Polk in the position of issuing
the initial order and then making the final
determination. She also participated in the
prosecution of the case before the ALJ. And under
these circumstances, there was no board or
commission to review Polk’s final decision.1
¶ 13 An aggrieved party may appeal an adverse
agency decision to the superior court, but the court’s
review is deferential. Section 12–910(E) provides
that the court “shall affirm the agency action unless
after reviewing the administrative record and
supplementing
evidence
presented
at
the
evidentiary hearing the court concludes that the
action is not supported by substantial evidence, is
contrary to law, is arbitrary and capricious or is an
abuse of discretion.” The court affirms the agency’s

A24
factual findings if they are supported by substantial
evidence, “even if the record also supports a
different conclusion.” Gaveck v. Ariz. State Bd. of
Podiatry Exam’rs, 222 Ariz. 433, 436 ¶ 11, 215 P.3d
1114, 1117 (App. 2009).
B. Due Process
¶ 14 Combining prosecutorial and adjudicative
functions in the same agency official gives rise to
due process concerns. A single agency may
investigate, prosecute, and adjudicate cases, and an
agency head may generally supervise agency staff
who are involved in those functions. See, e.g.,
Withrow v. Larkin, 421 U.S. 35, 53, 95 S.Ct. 1456,
43 L.Ed.2d 712 (1975) (“administrative agency [can]
investigate facts, institute proceedings, and then
make the necessary adjudications”). However, where
an agency head makes an initial determination of a
legal
violation,
participates
materially
in
prosecuting the case, and makes the final agency
decision, the combination of functions in a single
official violates an individual’s Fourteenth
Amendment due process right to a neutral
adjudication in appearance and reality. That due
process violation is magnified where the agency’s
final determination is subject only to deferential
review.2
¶ 15 The general parameters for due process are set
forth in Mathews v. Eldridge, 424 U.S. 319, 96 S.Ct.
893, 47 L.Ed.2d 18 (1976). There, the United States
Supreme Court held that the constitutional
sufficiency of administrative procedures is
determined by three factors:

A25
First, the private interest that will be
affected by the official action; second, the
risk of an erroneous deprivation of such
interest through the procedures used, and
the probable value, if any, of additional or
substitute procedural safeguards; and
finally, the Government’s interest, including
the function involved and the fiscal and
administrative burdens that the additional
or substitute procedural requirement would
entail.
Id. at 335, 96 S.Ct. 893.
¶ 16 In this context, where the government seeks
repayment of substantial campaign contributions
that the private parties contend were legal (and,
indeed, constitutionally protected), due process
requires a neutral decisionmaker. Although
Appellants have not alleged actual bias, once an
official determines that a legal violation has
occurred, that official can be expected to develop a
will to **656 *231 win at subsequent levels of
adjudication. At minimum, in the context of a
regulatory agency adjudication, a process that
involves the same official as both an advocate and
the ultimate administrative decisionmaker creates
an appearance of potential bias. See, e.g., Botsko v.
Davenport Civil Rights Comm’n, 774 N.W.2d 841,
849 (Iowa 2009) (“[T]he primary purpose of
separating
prosecutorial
from
adjudicative
functions” in an administrative agency “is to screen
the decisionmaker from those who have a ‘will to
win.’ ”). On the other hand, barring an agency head
who makes an ultimate decision from having even

A26
general supervisory authority over agency
employees involved in the prosecution of a case
would unduly hamper agency operations. Due
process will be satisfied if the agency head who
serves as the ultimate adjudicator does not also
serve in an advocacy role in the agency proceedings.
¶ 17 The right to a neutral adjudicator has long
been recognized as a component of a fair process.
One cannot both participate in a case (for instance,
as a prosecutor) and then decide the case.
Blackstone observed that a judge must not rule in a
cause in which he is a party, “because it is
unreasonable that any man should determine his
own quarrel.” Am. Gen. Ins. Co. v. Fed. Trade
Comm’n, 589 F.2d 462, 463 (9th Cir. 1979) (quoting
Blackstone, Commentaries on the Laws of England,
I, 91). In In re Murchison, 349 U.S. 133, 136, 75
S.Ct. 623, 99 L.Ed. 942 (1955), the United States
Supreme Court recognized the due process principle
that “no man can be a judge in his own case and no
man is permitted to try cases where he has an
interest in the outcome.” Murchison entailed a “oneman grand jury,” in which a judge acting as a grand
jury charged two witnesses with perjury and then
convicted them, which the Court held violated due
process. Id. at 133–34, 75 S.Ct. 623. Because the
judge was “part of the accusatory process,” he
“cannot be, in the very nature of things, wholly
disinterested in the conviction or acquittal of those
accused.” Id. at 137, 75 S.Ct. 623. “Fairness of
course requires an absence of actual bias in the trial
of cases. But our system of law has always
endeavored to prevent even the probability of
unfairness.” Id. at 136, 75 S.Ct. 623; accord

A27
Marshall v. Jerrico, Inc., 446 U.S. 238, 243, 100
S.Ct. 1610, 64 L.Ed.2d 182 (1980) (“[J]ustice must
satisfy the appearance of justice, and this stringent
rule may sometimes bar trial by judges who have no
actual bias and who would do their very best to
weigh the scales of justice equally between
contending parties.” (internal citation and quotation
marks omitted)). The process was impermissibly
tainted by the judge performing both prosecution
and adjudication functions.
¶ 18 The Court in Withrow, 421 U.S. at 46, 95 S.Ct.
1456, applied those principles to the administrative
context. There, a state licensing board notified a
physician that it would commence an investigative
proceeding to consider possible violations of his
medical license. Id. at 37–39, 95 S.Ct. 1456. The
physician challenged the board’s combined
investigatory and adjudicatory functions as a due
process violation. Id. at 39, 95 S.Ct. 1456. The Court
noted that although “situations have been identified
in which experience teaches that the probability of
actual bias on the part of the judge or decisionmaker
is too high to be constitutionally tolerable,” the
“contention that the combination of investigative
and adjudicative functions necessarily creates an
unconstitutional risk of bias in administrative
adjudication has a much more difficult burden,”
given “the presumption of honesty and integrity.”
Id. at 47, 95 S.Ct. 1456.
¶ 19 The Court distinguished Murchison on the
basis that there “the judge in effect became part of
the prosecution and assumed an adversary
position,” and observed that Murchison did not

A28
stand for the “broad rule that the members of an
administrative agency may not investigate the facts,
institute proceedings, and then make the necessary
adjudications.” Id. at 53, 95 S.Ct. 1456. The Court
noted that an “initial charge or determination of
probable cause and the ultimate adjudication have
different bases and purposes,” thus the same agency
may perform both functions. Id. at 58, 95 S.Ct. 1456.
However, the Court cautioned, “[t]hat the
combination of investigative and adjudicative
functions does not, without more, constitute a due
process violation, does not, of course, preclude a
court from determining from the special facts and
circumstances present in **657 *232 the case before
it that the risk of unfairness is intolerably high.” Id.
¶ 20 Here, the combination of prosecutorial and
adjudicative functions not just in a single agency
but in the same official presents “special facts and
circumstances” creating an intolerable risk of
unfairness. The initial determination of a legal
violation here was not akin to a judge finding
probable cause to proceed to trial and then reaching
a final decision after an adversarial process in which
the judge was not an advocate. Rather, under the
statutory scheme, the Secretary of State made the
probable cause finding. Polk then commenced
investigation and issued a lengthy decision finding a
legal violation and ordering compliance, which
would have been a final determination had
Appellants not appealed. In the subsequent ALJ
proceeding, Polk admittedly “was involved with the
prosecution of the case, by assisting with the
preparation and strategy.” Thereafter, she issued a
final administrative determination affirming her

A29
prior order and rejecting most of the ALJ’s
conclusions of law. So we have here not only a single
agency performing accusatory, advocacy, and
adjudicatory functions, but the same individual
performing all three functions. As Withrow
characterized the circumstances in Murchison, “the
judge in effect became part of the prosecution and
assumed an adversary position.” Withrow, 421 U.S.
at 53, 95 S.Ct. 1456. Beyond even that, Polk was in
the position to affirm the very determination and
order that she initially issued. See also id.
(describing denial of due process where judge could
rely on his own “[personal] knowledge and
impression ... that could not be tested by adequate
cross examination” (internal quotation marks
omitted)).
¶ 21 Other decisions further inform our analysis.
Concrete Pipe & Products of California, Inc. v.
Construction Laborers Pension Trust, 508 U.S. 602,
113 S.Ct. 2264, 124 L.Ed.2d 539 (1993), pertains to
pension plans, but its reasoning applies here. The
federal statutory scheme entailed an adjudication of
withdrawal liability by pension trustees, who have a
fiduciary duty to the integrity of the pension plans,
but the Court concluded that sufficient safeguards
were present to ensure due process. Id. at 619–20,
113 S.Ct. 2264. The initial liability determination
was made by the trustees, who “act only in an
enforcement capacity,” id. at 619, 113 S.Ct. 2264,
and whose decision was reviewed by a neutral
arbitrator applying a preponderance of the evidence
standard. Id. at 611, 113 S.Ct. 2264. “Where an
initial determination is made by a party acting in an
enforcement capacity,” the Court ruled, “due process

A30
may be satisfied by providing for a neutral
adjudicator to conduct a de novo review of all factual
and legal issues.” Id. at 618, 113 S.Ct. 2264
(internal quotation marks omitted). By contrast,
“[c]learly, if the initial view of the facts based on the
evidence derived from nonadversarial processes as a
practical or legal matter foreclosed fair and effective
consideration at a subsequent adversary hearing
leading to ultimate decision, a substantial due
process question would be raised.” Withrow, 421
U.S. at 58, 95 S.Ct. 1456.
¶ 22 Here the initial determination was subject to
de novo review by the ALJ, but the ALJ’s
determination was not final. Rather, the initial
decisionmaker returned to make the final decision.
“Even appeal and a trial de novo will not cure a
failure to provide a neutral and detached
adjudicator.” Concrete Pipe, 508 U.S. at 618, 113
S.Ct. 2264. The superior court review available from
the final agency decision here falls far short of that.
¶ 23 More recently, in Williams v. Pennsylvania, ––
– U.S. ––––, 136 S.Ct. 1899, 1908–09, 195 L.Ed.2d
132 (2016), the Court found a defendant’s due
process rights were violated when a prosecutor who
approved the decision to seek the death penalty
later served as a supreme court justice in a habeas
petition arising from the same crime. “Of particular
relevance to the instant case, the Court has
determined that an unconstitutional potential for
bias exists when the same person serves as both
accuser and adjudicator in a case.” Id. at 1905.
Where “a prosecutor who participates in a major
adversary decision” or “a judge has served as an

A31
advocate for the State in the very case the court is
now asked to adjudicate,” a serious question arises
concerning whether the adjudicator, **658 *233
despite best efforts, could untether from his or her
previous position and render a fair judgment. Id. at
1906. Here, the fact that Polk “had a direct,
personal role in the [Appellants’] prosecution,” id.,
likewise violates due process.
¶ 24 The reasoning of the Williams dissenters also
supports our conclusion. Chief Justice Roberts
distinguished the basis for the due process violation
in Murchison, where “the judge (sitting as grand
jury) accused the witnesses of contempt, and then
(sitting as judge) presided over their trial on that
charge.” Id. at 1913 (Roberts, C.J., dissenting). In
Williams, by contrast, it was “abundantly clear” that
the justice “had not made up his mind about either
the contested evidence or the legal issues under
review,” because he had not “previously made any
decision with respect to that evidence in his role as
prosecutor.” Id. at 1914. Likewise, Justice Thomas
observed in Williams that “[b]roadly speaking,
Murchison ’s rule constitutionalizes the early
American statutes requiring disqualification when a
single person acts as both counsel and judge in a
single civil or criminal proceeding.” Id. at 1920
(Thomas, J., dissenting). He emphasized that a due
process violation occurs only where the “same
person ... act[s] as counsel and adjudicator in the
same case.” Id. at 1919 (highlighting the separation
between the original decision to approve the request
to seek the death penalty and the current civil
proceeding regarding timeliness of a stay action). In
this case, Polk made her views on the evidence and

A32
legal issues very clear in her initial twenty-five-page
order, and she subsequently affirmed that very
order in the same case after participating in the
prosecution.
¶ 25 These cases instruct that the combination of
accusatory, advocacy, and adjudicative roles in a
single agency official violates due process. Other
courts have followed that instruction. Synthesizing
the cases as we have, the Iowa Supreme Court held
in Botsko that the conduct of the civil rights
commission’s director in advocating on behalf of the
complainant and then participating in the
commission’s
closed
adjudicatory
proceeding
violated due process. 774 N.W.2d at 849–50.
Therein, the court articulated the applicable
constitutional boundaries. Applying Withrow, it
concluded that “there is no due process violation
based solely upon the overlapping investigatory and
adjudicatory roles of agency actors.” Id. at 849. “A
more serious problem, however, is posed where the
same person within an agency performs both
prosecutorial and adjudicative roles.” Id.; see also
Am. Gen., 589 F.2d at 464–65 (the order “is infected
with
invalidity”
because
a
commissioner
participated as counsel in earlier proceedings, even
though that participation may have been
“superficial rather than substantial”); Trans World
Airlines, Inc. v. Civil Aeronautics Bd., 254 F.2d 90,
91 (D.C. Cir. 1958) (“The fundamental requirements
of fairness ... require at least that one who
participates in a case on behalf of any party,
whether actively or merely formally by being on
pleadings or briefs, take no part in the decision of
that case.”); Nightlife Partners, Ltd. v. City of

A33
Beverly Hills, 108 Cal.App.4th 81, 133 Cal.Rptr.2d
234, 248 (2003) (observing that combination of
investigatory and adjudicatory functions is “fraught”
with problems, especially where “these dual
functions were not held by different sections of a
single office, but by a single individual”).
¶ 26 Arizona jurisprudence is consistent with those
authorities. In Comeau, a doctor retained by the
board investigated the complaint, then made
statements and asked questions before the
administrative panel, but “was not on the panel and
did not participate in the discussion that preceded
the panel’s findings and recommendations.” 196
Ariz. at 108 ¶ 27, 993 P.2d at 1072. In Rouse v.
Scottsdale Unified School District No. 48, 156 Ariz.
369, 371, 752 P.2d 22, 24 (App. 1987), the court
stated that “[t]he precise question in this case is
whether simply joining investigative/prosecutorial
and adjudicative functions results in a partial
decision maker. We hold that it does not.” To the
extent that these functions are combined in a single
agency, we agree that the potential for bias is not
intolerable; if they are performed by the same
individual, they violate due process. Cf. Taylor v.
Ariz. Law Enf. Merit Syst. Council, 152 Ariz. 200,
206, 731 P.2d 95, 101 (App. 1986) (“A conflict of
interest would clearly arise if the same assistant
attorney **659 *234 general participated as an
advocate before the council and simultaneously
served as an advisor to the council in the same
matter.”). In Rouse, the termination decision at
issue was initiated by the staff, not the board that
rendered the final decision; and “the board, at the
time of the hearing, had little more than ‘mere

A34
familiarity with the facts.’ ” 156 Ariz. at 373, 752
P.2d at 26. Under such circumstances, the
defendant still had a neutral adjudicator.
¶ 27 We hold that due process does not allow the
same person to serve as an accuser, advocate, and
final decisionmaker in an agency adjudication. This
holding should not unnecessarily impede the
efficient and effective functioning of administrative
agencies. As noted, in most instances, agencies are
free under Arizona law to generate their own
processes regarding initiation, investigation, and
prosecution of charges or complaints. The agency
head may supervise personnel involved in such
functions; but if she makes the final agency
decision, she must be isolated from advocacy
functions
and
strategic
prosecutorial
decisionmaking and must supervise personnel
involved in those functions in an arms-length
fashion. See, e.g., Lyness v. Pa. State Bd. of Med.,
529 Pa. 535, 605 A.2d 1204, 1209, 1211 (1992) (“if
more than one function is reposed in a single
administrative entity, walls of division [must] be
constructed which eliminate the threat or
appearance of bias”; specifically, “placing the
prosecutorial functions in a group of individuals, or
entity, distinct from the Board which renders the
ultimate adjudication”).
¶ 28 Although Appellants do not allege actual bias,
the circumstances here deprived them of due
process. Apparently unique in the context of Arizona
administrative law, Arizona’s campaign finance
statute, when joined with the APA, place a single
official in the position of making both an initial and

A35
final determination of legal violation, with no
opportunity for de novo review by the trial court. A
quasi-judicial proceeding “must be attended, not
only with every element of fairness but with the
very appearance of complete fairness.” Amos Treat
& Co. v. Sec. & Exch. Comm’n, 306 F.2d 260, 266–67
(D.C. Cir. 1962) (holding that a similar combination
of functions violated the “basic requirement of due
process”). Specifically, we hold that when Polk also
assumed an advocacy role during the ALJ
proceedings, the due process guarantee prohibited
her from then serving as the final adjudicator.
III. REMEDY
¶ 29 Appellants argue that because there was no
“valid” decision by the agency head within thirty
days after the ALJ decision, we should reinstate the
ALJ decision as the “final administrative decision”
pursuant to A.R.S. § 41–1092.08(D) (“if the head of
the agency ... does not accept, reject or modify the
administrative law judge’s decision within thirty
days,” it becomes “the final administrative
decision”). We disagree. The agency head took action
within the deadline.
¶ 30 Rather, Appellants are entitled to a
determination by a neutral decisionmaker. See
Williams, 136 S.Ct. at 1910; Botsko, 774 N.W.2d at
853; Nightlife Partners, 133 Cal.Rptr.2d at 248–49.
We therefore remand the matter to the current
Attorney General’s Office, which does not have a
conflict, for a final administrative decision. We
express no opinion on the merits of the case.

A36
¶ 31 After filing their petition for review, Appellants
submitted an amended request for attorney fees
under A.R.S. § 12–348(A)(2), which allows an award
of fees for a party that “prevails by an adjudication on
the merits” in a “court proceeding to review a state
agency decision.” Because the case is remanded, any
fee award would be premature as no party has yet
“prevail[ed] by an adjudication on the merits.”
Scottsdale Healthcare, Inc. v. Ariz. Health Care Cost
Containment Syst. Admin., 206 Ariz. 1, 8 ¶ 29, 75
P.3d 91, 98 (2003) (alteration in original).
¶ 32 For the foregoing reasons, we vacate the
decisions of the superior court and court of appeals,
and remand the case to the Attorney General’s
Office for further proceedings consistent with this
opinion.
All Citations
242 Ariz. 226, 394 P.3d 651, 765 Ariz. Adv. Rep. 16
FOOTNOTES
* Justices Ann A. Scott Timmer, Andrew W. Gould,
and John R. Lopez IV have recused themselves from
this case. Pursuant to article 6, section 3 of the
Arizona Constitution, the Honorable Peter J.
Eckerstrom, Chief Judge of the Arizona Court of
Appeals, Division Two, the Honorable Joseph W.
Howard, Judge of the Arizona Court of Appeals,
Division Two, and the Honorable Timothy M.
Wright, Judge of the Gila County Superior Court,
were designated to sit in this matter.

A37
Polk notes that the federal APA contains an
exception allowing an agency head, unlike other
employees, to both participate in investigative or
prosecuting functions and participate or advise in
the agency review or decision. 5 U.S.C. § 554(d).
Arizona’s APA contains no such exception. Arizona’s
APA tacitly recognizes the potential for conflict
arising from agency officials performing certain
multiple roles in the administrative adjudication
process. Section 41–1092.06(B) provides that in the
context of informal settlement conferences, the
agency must be represented by “a person with the
authority to act on behalf of the agency,” and the
“parties participating in the settlement conference
shall waive their right to object to the participation
of the agency representative in the final
administrative decision.”
1

As Appellants did not raise or argue a distinct
state constitutional claim, we have no occasion to
determine whether the due process provision in
Arizona’s Declaration of Rights, Ariz. Const. art. 2, §
4, provides greater protection in this context than
the Fourteenth Amendment. Cf. Garris v. Governing
Bd. of S.C. Reinsurance Facility, 333 S.C. 432, 511
S.E.2d 48, 54 (1998) (holding that the state
constitution provides greater procedural protections
in administrative proceedings than federal due
process).
2

End of Document

A38
Horne v. Polk, Not Reported in P.3d (2016)
2016 WL 706376
Only the Westlaw citation is currently available.
NOTICE: NOT FOR OFFICIAL PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME
COURT 111(c), THIS DECISION IS NOT
PRECEDENTIAL AND MAY BE CITED ONLY AS
AUTHORIZED BY RULE.
Court of Appeals of Arizona,
Division 1.
Thomas HORNE, individually and Thomas Horne,
for Attorney General Committee (SOS Filer ID 2010
00003); Kathleen Winn, individually, and Business
Leaders for Arizona (SOS Filer ID 2010 00375),
Plaintiffs/Appellants,
v.
Sheila Sullivan POLK, Yavapai County Attorney,
Defendant/Appellee.
No. 1 CA–CV 14–0837.
|
Feb. 23, 2016.
Appeal from the Superior Court in Maricopa County;
No. LC2014–000255–001; The Honorable Crane
McClennen, Judge.
Attorneys and Law Firms
Wilenchik & Bartness, P.C., By Dennis I. Wilenchik,
Kimerer & Derrick P.C., By Michael D. Kimerer,
Tiffany & Bosco, P.A., By Timothy A. LaSota,
Phoenix, Counsel for Plaintiffs/Appellants.

A39
Yavapai County Attorney, By Benjamin D.
Kreutzberg, Prescott, Counsel for Defendant/
Appellee.
Judge JON W. THOMPSON delivered the decision of
the Court, in which Presiding Judge RANDALL M.
HOWE and Judge LAWRENCE F. WINTHROP
joined.
MEMORANDUM DECISION
THOMPSON, Judge.
*1 ¶ 1 Appellants Tom Horne (Horne), Tom Horne
for Attorney General Committee (THAGC), Kathleen
Winn (Winn), and Business Leaders for Arizona
(BLA) (collectively appellants) appeal from the trial
court’s order affirming the final decision and order
issued in May 2014 by Appellee Special Arizona
Attorney General and Yavapai County Attorney
Sheila Polk (Polk) affirming her October 2013 order
requiring compliance with campaign finance laws.
For the following reasons, we affirm.
FACTUAL AND PROCEDURAL HISTORY
¶ 2 Horne ran for the office of Arizona Attorney
General in 2010. Winn was a volunteer who worked
for the Horne campaign during the primary election.
Horne won the Republican primary election in
August 2010. Subsequently, in October 2010, Winn
decided to cease volunteering for the Horne
campaign and “reactivate” BLA, her independent
expenditure committee. She then began soliciting
contributions for BLA.1 The sole purpose of BLA in

A40
relation to the Horne campaign was to raise money
to purchase a political commercial. BLA hired Brian
Murray (Murray) and Lincoln Strategy Group to
produce the commercial. The commercial started
running on October 25; it was a negative ad directed
against Felecia Rotellini (Rotellini), Horne’s
Democratic opponent.2 Horne was elected to the
office of Arizona Attorney General in 2010.
¶ 3 In 2013, the Arizona Secretary of State issued a
letter to the Arizona Attorney General’s Office
stating that reasonable cause existed to believe that
appellants violated state campaign finance laws
during the 2010 general election. Solicitor General
Robert Ellman appointed Polk as Special Arizona
Attorney General to fulfill the role of Attorney
General as set forth in Arizona Revised Statutes
(A.R.S.) section 16–924 (2013).3
¶ 4 After investigation, Polk issued an order in
October 2013 requiring compliance concluding that
appellants violated campaign finance laws by
coordinating their activities in order to advocate for
the defeat of Rotellini. The order required Horne and
THAGC to amend their 2010 post-general election
report to include expenditures by BLA as in-kind
contributions, required Winn and BLA to amend
their 2010 post-general election report, and required
Horne and THAGC to refund $397,378.00, the
amount deemed in-kind contributions in excess of
legal limits. Appellants filed a request for hearing
pursuant to A.R.S. § 16–924(A). Polk set the matter
for an administrative hearing, and an administrative
law judge (ALJ) held a three-day hearing in
February 2014.

A41
¶ 5 In April 2014, the ALJ issued her decision
concluding that Polk failed to prove by a
preponderance of the evidence illegal coordination
between appellants. The decision recommended that
Polk vacate her order requiring compliance.
¶ 6 In May 2014, pursuant to A.R.S. § 41–1092.08(B)
(2013)4, Polk issued her final administrative decision
rejecting the ALJ’s recommendation and affirming
her order requiring compliance. In her final decision,
Polk accepted all of the ALJ’s findings of fact,
accepted in part the ALJ’s conclusions of law, and
rejected in part the ALJ’s conclusions of law. She
found that the evidence showed that Winn and
Horne coordinated to develop BLA’s commercial on
October 20, 2010, and that subsequently, on October
27, Horne directed Winn to raise another $100,000
and expend it in accordance with advice Horne
received from Ryan Ducharme (Ducharme), an
individual who was working on a different campaign.
*2 ¶ 7 Appellants filed a notice of appeal for judicial
review of administrative decision in May 2014.
Neither party requested an evidentiary hearing. In
October 2014, the trial court affirmed Polk’s final
administrative decision. Appellants timely appealed
from the judgment, and the trial court stayed the
case below pending appeal. We have jurisdiction
pursuant to A.R.S. § 12–913 (2003).
DISCUSSION
A. Standard of Review
¶ 8 Section 12–910(E) (2003) provides that the

A42
superior court, in reviewing a final administrative
decision, “shall affirm the agency action unless after
reviewing
the
administrative
record
and
supplementing evidence presented at the evidentiary
hearing the court concludes that the action is not
supported by substantial evidence, is contrary to
law, is arbitrary and capricious or is an abuse of
discretion.” The superior court defers to the agency’s
factual findings and affirms them if they are
supported by substantial evidence. Gaveck v. Ariz.
State Bd. of Podiatry Exam’rs, 222 Ariz. 433, 436, ¶
11, 215 P.3d 1114, 1117 (App.2009) (citation
omitted). “If an agency’s decision is supported by the
record, substantial evidence exists to support the
decision even if the record also supports a different
conclusion.” Id. (citations omitted). “On appeal, we
review de novo the superior court’s judgment,
reaching the same underlying issue as the superior
court: whether the administrative action was not
supported by substantial evidence or was illegal,
arbitrary and capricious, or involved an abuse of
discretion.” Carlson v. Ariz. State Pers. Bd., 214 Ariz.
426, 430, ¶ 13, 153 P.3d 1055, 1059 (App.2007). See
also Eaton v. Ariz. Health Care Cost Containment
Sys., 206 Ariz. 430, 432, ¶ 7, 79 P.3d 1044, 1046
(App.2003) (“The court will allow an administrative
decision to stand if there is any credible evidence to
support it, but, because we review the same record,
we may substitute our opinion for that of the
superior court .”) (citation omitted). We review de
novo any legal issues. Comm. for Justice & Fairness
(CJF) v. Ariz. Sec’y of State’s Office, 235 Ariz. 347,
351, ¶ 17, 332 P.3d 94, 98 (App.2014) (review denied
April 21, 2015).

A43
B. Polk’s Final Decision Was Supported by the
Evidence and Was Not Arbitrary or an Abuse of
Discretion
¶ 9 Under Arizona’s campaign finance laws,
independent expenditures are not considered to be
contributions to a candidate’s campaign. A.R.S. 16–
901(5)(b)(vi) (2010). A.R.S. 16–901(14) (2010) defines
an “independent expenditure” as:
[A]n expenditure by a person or political
committee, other than a candidate’s
campaign
committee,
that
expressly
advocates the election or defeat of a clearly
identified candidate, that is made without
cooperation or consultation with any
candidate or committee or agent of the
candidate and that is not made in concert
with or at the request or suggestion of a
candidate, or any committee or agent of the
candidate....
*3 Under A.R.S. § 16–917(C) (2010), an expenditure
by a political committee or person that does not meet
the definition of an independent expenditure is
considered to be an in-kind contribution to the
candidate and a corresponding expenditure by the
candidate. Federal guidelines provide further
guidance as to coordinated communications and
independent expenditures. See 11 C.F.R. 109.21
(2010).
¶ 10 Appellants argue that Polk’s final decision was
unsupported by substantial evidence, was arbitrary,
or was an abuse of discretion pursuant to A.R.S. §

A44
12–910(E). We disagree. On October 20, 2010, Winn
and Murray designed BLA’s political commercial.
The evidence showed that Murray emailed Winn a
draft script of the commercial at 10:21 a.m. that day.
The draft script provided:
The Federal Government is suing Arizona.
Arizona needs the right attorney general. An
Attorney General who will be tough on
illegal immigration. Liberal Felicia Rotellini
isn’t. She openly opposes SB 1070. It gets
worse: taking money from labor unions and
special interest groups who launched a
boycott against Arizona. She sold Arizona
out. Opposing SB 1070, boycotting Arizona,
selling us out. If she wins Arizona loses.
Around lunchtime, Winn met with George Wilkinson
(Wilkinson), BLA’s treasurer, to discuss the
commercial. At 2:19 p.m. on the 20th, Horne called
Winn and spoke with her for about eight minutes. In
the middle of this phone call, Murray emailed Winn
an unedited voice-over file of the commercial. At 2:29
p.m., a few minutes after ending the phone call with
Horne, Winn emailed Murray the following:
We do not like that her name is mentioned 4
times and no mention for Horne. We are
doing a re-write currently and will get back
to you. Too negative and takes away from the
message we wanted which [sic] we want to
hire the next AG to protect and defned [sic]
Arizona against the federal government. I
will get back to you shortly Brian sorry for
the confusion except I have several
masters.[5]

A45
At 2:30 p.m., Murray emailed Winn telling her he
would halt production of the commercial. At 2:37
p.m., Winn emailed Murray saying that she would
“have it worked out by 5:30,” and that:
[t]hey feel [the commercial] leaves people
with [Rotellini’s] name 4 X and with no
mention of [Horne] it is like saying don’t
think about a pink elephant.. so you think
about the pink elephant.
Also at 2:37, Winn called Horne again and they
spoke for eleven minutes. At 2:50 p.m., two minutes
after that phone call ended, Winn emailed Murray:
“Okay it will be similar message just some changes.”
At 2:53 p.m. Murray responded:
It is kind of the point, driving [Rotellini’s]
negatives. We don’t want Tom’s name
associated with the negative messaging.
From a timing standpoint in order to be on
the air Monday we will have to produce and
make all edits tomorrow....
At 2:59 p.m. Winn responded:
The concern is you can get out her negatives
without saying her name 4 times. I have two
very strong personalities debating this
moment she lacks name recognition we do
now want to help her in that regard is the
argument.[[6]
*4 At 3:11 p.m., Winn emailed Murray a revised
script of the commercial, stating: “I think I prevailed

A46
no mention of [Horne] thanks for what you said. I
believe this times out let me know.” At 3:13 p.m.,
Murray emailed Winn that the script was too long.
At 3:14 p.m. Winn responded suggesting he remove a
sentence. At 3:15 p .m., Winn received a phone call
from attorney Harris that lasted three minutes. At
3:16 p.m., Murray emailed Winn that the script was
still too long. At 3:21 p.m., Home called Winn again
for about four minutes. At 3:25 p.m., Winn emailed
Murray stating:
Change to: Arizona needs the RIGHT
attorney general taking money from labor
unions and special interest groups
The final script of the commercial that aired
provided:
The Federal Government is suing Arizona.
But, Arizona needs the right Attorney
General. Liberal Felicia Rotellini isn’t. She
openly opposes SB 1070. It gets worse:
Rotellini took money from labor unions and
special interest groups who boycott Arizona.
She sold Arizona out. Opposing SB 1070,
boycotting Arizona, selling us out. If Rotellini
wins, Arizona loses. Paid for by Business
Leaders for Arizona. Major funding by the
Republican State Leadership Committee
(571) 480–4860.
¶ 11 The evidence supports Polk’s conclusion that
Horne and Winn coordinated on October 20, 2010.
The content and timing of Winn’s emails to and from
Murray and the timing of her phone calls with Horne

A47
support Polk’s findings that Horne and Winn
discussed the wording of the commercial on October
20 and that their discussion led to changes in the
wording of the commercial.7 Although the record may
also support a different conclusion, we must defer to
Polk’s decision. See Gaveck, 222 Ariz. at 436, ¶ 11, 153
P.3d at 117; Blake v. City of Phoenix, 157 Ariz. 93, 96,
754 P.2d 1368, 1371 (App.1988). Polk was free to
reject Winn and Horne’s testimony as to the content of
their discussions as “not credible.”8 Appellants argue
that all of the evidence of coordination was
circumstantial rather than direct evidence. However,
even if the evidence here was circumstantial we
assign no less weight to it. See State v. Harvill, 106
Ariz. 386, 391, 476 P.2d 841, 846 (1970) ( “direct and
circumstantial evidence are [of] intrinsically similar
[probative value]; therefore, there is no logically sound
reason for drawing a distinction as to the weight to be
assigned each.”).
¶ 12 Additionally, the evidence supports Polk’s
finding that Horne and Winn coordinated on October
27, 2010. On that day, Ryan Ducharme sent Horne
an email stating:
Recent polls show you losing ground amongst
independents to Rotellini and her starting to
pick up more Reps then you are picking up
Dems. Bleeding needs to be stopped.
Allegations and smears against you by DC
group starting to peel away votes. They need
to be addressed as desperate last minute
attacks with no basis in truth.

A48
Ducharme followed up with a second email to Horne
stating:
*5 I would link attacks directly to Rotellini
as someone behind in the polls trying to hide
from her record (SB1070, ties to unions
calling for AZ boycott, etc.) The truth, once
known, will undermine Rotellini’s credibility
and call in to [sic] question her character—a
very important quality for Inds. You are
much stronger in rural AZ.
Home forwarded this email chain to Winn at 2:10
p.m. on the 27th stating: “I forwarded this to
[C]asey.[9] Maybe with this we can. Try again for the
hundred k.” Winn forwarded Horne’s email chain to
Murray at 2:31 p.m., stating, “[t]his just came into
me read below.” [10] At 2:55 p.m., Murray forwarded
the chain of emails to his firm’s attorney, stating:
I wanted to make you aware of an incident
that occurred with one of our clients. [Winn]
is running an [independent expenditure]
committee called [BLA] which is in support
of Tom Horne for AG. I was hired to do the
TV component. I warned her on numerous
occasions that she needed to cease contact
with the candidate and any agents of the
campaign. I then received the following
email. I then called her and informed her
again that she should not have any contact.
She assured me that this was unsolicited and
had not in several days. As our firm’s
attorney I wanted to make you aware of this
situation should something arise at a later
date.

A49
From this evidence, Polk concluded that Horne was
trying to get Winn to raise an additional $100,000
and expend it attacking Rotellini.11 Polk further
found that the October 27, 2010 email from Horne to
Winn “casts grave doubt on the denials of both
[Horne and Winn] that coordination occurred on
October 20, 2010.” Because there was evidence in the
record supporting Polk’s finding that Horne and
Winn coordinated on October 27, 2015, we find no
abuse of discretion.
C. Appellants’ Due Process Rights Were Not
Violated
¶ 13 Appellants argue that their due process rights
were violated because Polk was both an advocate
and judge in this case and necessarily biased. It is
well established under Arizona law that an agency
employee can investigate, prosecute, and adjudicate
a case. In Comeau v. Ariz. State Bd. of Dental
Exam’rs, 196 Ariz. 102, 108, ¶¶ 26–27, 993 P.2d
1066, 1072 (App.1999), where the appellant argued
that his due process rights were violated because the
Board of Dental Examiner’s investigator functioned
in several capacities in his professional discipline
matter, we noted:
An overlap of investigatory, prosecutorial,
and adjudicatory functions in an agency
employee does not necessarily violate due
process. An agency is permitted to combine
some functions of investigation, prosecution,
and adjudication unless actual bias or
partiality is shown. (citations omitted).

A50
Similarly, in Rouse v. Scottsdale Unified Sch. Dist.,
156 Ariz. 369, 371, 374, 752 P.2d 22, 24, 27
(App.1987), we held that due process was not
violated when a school board participated in a
decision to terminate a teacher, and then reviewed
and affirmed the termination, concluding:
*6 Due Process ... is not violated unless there
is a showing of actual bias or partiality. A
mere
joining
of
investigative
and
adjudicative functions is not sufficient.
[Appellant] has made no such showing of
actual bias or partiality here.
In this case, appellants make no showing of actual
bias. Accordingly, their due process rights were not
violated.
D. Polk Did Not Err By Applying the Wrong
Standard of Proof
¶ 14 Appellants next argue that Polk erred by
applying the wrong standard of proof. They maintain
that the standard of proof should have been clear
and convincing evidence instead of a preponderance
of the evidence. They base their argument on the
future possibility that, if they do not come into
compliance with Polk’s order requiring compliance,
Polk could then assess a civil penalty pursuant to
A.R.S. § 16–924(B) and A.R.S. § 16–905(J) (civil
penalty for violating contribution limits). However,
the clear and convincing standard of proof does not
apply in this case. Arizona Administrative Code R2–
19–119(A) (2013) provides that the standard of proof
in administrative hearings is a preponderance of the

A51
evidence, unless otherwise provided by law.
Although appellants cite cases holding that the
recovery of punitive damages requires a clear and
convincing standard of proof, see e.g., Linthicum v.
Nationwide Life Ins. Co., 150 Ariz. 326, 332, 723
P.2d 675, 681 (1986), the order requiring compliance
was issued pursuant to A.R.S. § 16–924(A). That
section does not provide for civil penalties, nor did
Polk’s order assess civil penalties. The remedy in
Polk’s order required a repayment of contributions
that exceeded the relevant limits.12 Accordingly, we
find no error.
B. Arizona’s Campaign Finance Contribution
Limits Were Constitutional
¶ 15 Appellants argue that A.R.S. § 16–905, which
limited individual political contributions in Arizona
to $840 per election cycle, violated the United States
and Arizona Constitutions because the limits were
too low.13 They argue that, with a limit of $840 per
election cycle (primary and general elections)
Arizona really had a “per election” limit of $420.
¶ 16 In Randall v. Sorrell, 548 U.S. 230, 126 S.Ct.
2479, 165 L.Ed.2d 482 (2006), the United States
Supreme Court addressed the constitutionality of
Vermont’s campaign contribution limits. Vermont
limited political contributions to candidates for state
office by individuals, political committees and, and
political parties ($400 for a candidate running for
governor, lieutenant governor or other statewide
office, $300 for state senator, and $200 for state
representative, per two-year general election cycle
with no index for inflation). Id. at 238–39. In

A52
Randall, the Supreme Court found that Vermont’s
contribution limits failed to satisfy the First
Amendment’s requirement that contribution limits
be “closely drawn.” Id. at 238, 249, 253.
¶ 17 The plurality opinion set out a two-part, multifactor test. First, a court should look for “danger
signs” that the limits are too low, such as 1) limits
are set per election cycle rather than divided
between primary and general elections, 2) limits
apply to contributions from political parties, 3) the
limits are the lowest in the country, and 4) the limits
are below those the Supreme Court has previously
upheld. Id. at 249–53 & 268 (Thomas, J.,
concurring). Then, if danger signs exist, the court
must determine whether the limits are closely
drawn. Id. at 249, 253. To determine whether the
limits are closely drawn, the court considers:
*7 1. [Whether the] contributions limits will
significantly restrict the amount of funding
available for challengers to run competitive
campaigns.
2. [Whether] political parties [must] abide by
exactly the same low contribution limits that
apply to other contributors.
3. [Whether an] Act excludes from its
definition
of
“contribution”
[volunteer
services].
4. [Whether or not] contribution limits are ...
adjusted for inflation.
5. Any special justification that might
warrant a [low or restrictive] contribution.

A53
Id. at 253–62. Arizona’s contribution limits in 2010
were $840 per election cycle in comparison to
Vermont’s limit of $400 per two-year election cycle
for candidates for governor and lieutenant governor.
Section 16–905 provided for higher total contribution
limits for candidates to accept contributions from
political parties and organizations. Section 16–
901(5)(iv)(b) further exempted a volunteer’s
unreimbursed payment for personal travel expenses
from being considered contributions, and A.R.S. §
16–905(H) adjusted contribution limits for inflation.
Given all of the factors, and lack of a showing that a
candidate for attorney general in Arizona could not
run a competitive campaign under the 2010
contribution limits, we find that the contribution
limits did not violate the First Amendment.
F. Appellants Waived Their Argument that
A.R.S. § 16–901(19) Was Unconstitutional
¶ 18 Finally, appellants argue that there was no
statutory basis for Polk’s enforcement action because
A.R.S. § 16–901(19), which defines “political
committee,”
is
unconstitutional.14
Because
appellants failed to raise the argument concerning
section 16–901(19) below, they have waived it. See
Rand v. Porsche Fin. Servs., 216 Ariz. 424, 434, ¶ 39,
n. 8, 167 P.3d 111, 121, n. 8 (App.2007) (arguments
not raised in the trial court are waived on appeal).
We decline to accept appellants’ suggestion that we
consider this argument even though they failed to
raise it because they make a constitutional
argument. See Hawkins v. Allstate Ins. Co., 152 Ariz.
490, 503, 733 P.2d 1073, 1086 (1987).

A54
G. Attorneys’ Fees and Costs
¶ 19 Appellants request attorneys’ fees pursuant to
A.R.S. § 12–348 and costs pursuant to A.R.S. § 12–
341 and –342. We deny the request for fees and
costs.
CONCLUSION
¶ 20 For the foregoing reasons, the decision of the
trial court affirming Polk’s final decision and order
requiring compliance is affirmed.
All Citations
Not Reported in P.3d, 2016 WL 706376
FOOTNOTES
1

According to Winn’s March 30, 2012 affidavit she
originally created BLA in 2009 to oppose Andrew
Thomas’s candidacy for Attorney General.

2

BLA raised and expended more than $500,000 on
its sole commercial. (I.102). BLA received
$350,000 from the Republican State Leadership
Committee (RSLC).

3

Section 16–924(A) provides, in relevant part:
“The attorney general, county attorney or city or
town attorney, as appropriate, may serve on [a
person believed to have violated any provision of
Title 16] an order requiring compliance with that
provision. The order shall state with reasonable
particularity the nature of the violation and shall
require compliance within twenty days from the

A55
date of issuance of the order. The alleged violator
has twenty days from the date of issuance of the
order to request a hearing pursuant to title 41,
chapter 6.”
4

Section 41–1092.08(B) provides, in relevant part:
“Within thirty days after the date the office sends
a copy of the administrative law judge’s decision
to the head of the agency ... the head of the
agency ... may review the decision and accept,
reject or modify it.... If the head of the agency ...
rejects or modifies the decision the agency head
... must file with the office ... and serve on all
parties a copy of the administrative law judge’s
decision with the rejection or modification and a
written justification setting forth the reasons for
the rejection or modification.”

5

Winn testified that “we” in the 2:29 p.m. email to
Murray referred to herself and Wilkinson, not
Horne, and that her “several masters” included
Wilkinson and attorney Greg Harris (Harris),
who represented one of BLA’s donors. She denied
discussing the commercial’s script with Horne on
the 20th and testified instead that she only spoke
with Horne about a real estate transaction and
her mother’s surgery. Appellants provided no
emails or real estate documents at trial which
would corroborate that Winn was working on
Horne’s real estate transaction in October 2015.

6

Winn testified that the “two very strong
personalities debating” in her 2:59 p.m. email
were coworkers in her office at AmeriFirst. She
denied that Horne was one of the “strong

A56
personalities” debating the commercial’s script.
In contrast, in her May 30, 2012 affidavit, Winn
stated that she “produced the ad, and bought the
air time without the assistance of anyone other
than Mr. Murray.”
7

Appellants argue that the changes to the
commercial were not material, and thus, even if
Winn and Horne discussed the commercial those
discussions
would
not
constitute actual
coordination. Under 11 C.F.R. § 109.21(d)(2), a
communication is deemed coordinated if the
candidate “is materially involved in decisions
regarding the content, intended audience, means
or mode of the communication, specific media
outlet used, the timing or frequency or size or
prominence of a communication.” Even if the
changes to the commercial were not material, it
does not follow that Horne could not have been
materially involved in the revisions.

8

Citing a Maryland case, State of Md. Comm’n on
Human Relations v. Kaydon Ring & Seal, Inc.,
149
Md.App.
666,
818
A.2d
259
(Md.Ct.Spec.App.2003), appellants argue that
Polk’s decision was not based on substantial
evidence because she did not defer to the ALJ’s
credibility findings. But A.R.S. § 41–1092.08(B)
expressly permits “the head of the agency ... [to]
review the [ALJ’s] decision and accept, reject or
modify it.”

9

Casey Phillips was a regional director for the
RSLC.

A57
10

Winn testified that she “didn’t even really read
[the email],” but just forwarded it to Murray
without asking him to take any action. Horne
testified that he paid no attention to the strategic
advice in Ducharme’s email and that part of the
email was “utterly meaningless.” He maintained
that all he cared about in the email was the
polling data.

11

Appellants argue that the October 27 email only
concerned fundraising and that A.R.S. § 16–
901(14) and the relevant federal guidelines apply
only to “expenditures” (how money is spent such
as the content of the commercial) and not
contributions. Horne’s October 27 email,
however, did more than request Winn to raise an
additional $100,000, it also contained strategic
advice from Ducharme concerning attacking
Rotellini.

12

Appellants also argue for heightened scrutiny
because this case implicates their First
Amendment rights. They maintain that Polk
relied on “mere conjecture” in reaching her
decision. However, as discussed in section B,
supra, there was sufficient evidence from which
Polk could find coordination by a preponderance
of the evidence.

13

In 2013 the Arizona legislature raised
contribution limits to $2500 from an individual.
A.R.S. § 16–905 (2013).

14

Appellants offer an additional constitutional
argument concerning whether the definition of

A58
“independent
expenditure”
was
unconstitutionally overbroad. They cite our
opinion in Comm. for Justice & Fairness, 235
Ariz. 347, 332 P.3d 94 (App.2014), where we
found that section to be constitutional, and note
that review was still pending at the time of
briefing in this appeal. However, our supreme
court denied review of Committee for Justice &
Fairness in April 2015.
End of Document

A59
Michael K. Jeanes, Clerk
*** Filed ***
10/31/2014 8:00 AM
SUPERIOR COURT OF ARIZONA,
MARICOPA COUNTY
LC2014-000255-001 DT

10/30/14

THE HON. CRANE MCCLENNEN
CLERK OF THE COURT
J. Eaton Deputy
TOM HORNE

MICHAEL D. KIMERER

KATHLEEN WINN

TIMOTHY LASOTA

SHEILA SULLIVAN POLK (001)
JACK H. FIELDS
OFFICE OF ADMINISTRATIVE
HEARINGS
REMAND DESK – LCA – CCC
MINUTE ENTRY
Appellants Tom Horne (individually) (Horne),
Tom Horne for Attorney General Committee
(TH4AGC), Kathleen Winn (individually) (Winn),
and Business Leaders for Arizona (BLA) (collectively
Appellants) ask this Court to review the Final
Decision and Order issued on May 14, 2014, by
Appellee Special Arizona Attorney General and
Yavapai County Attorney Sheila Polk affirming her

A60
October 17, 2013, Order Requiring Compliance. For
the following reasons, this Court affirms the May 14,
2014, Final Decision and Order.
I.

FACTUAL BACKGROUND.

On June 27, 2013, the Arizona Secretary of
State issued a letter to the Office of the Arizona
Attorney General (OAAG) stating reasonable cause
existed to believe Appellants had violated campaign
finance laws during the 2010 general election. On
that same day, the OAAG, through Solicitor General
Robert Ellman, appointed Yavapai County Attorney
Sheila Polk (Polk) as a Special Arizona Attorney
General to fulfill the role of the Arizona Attorney
General as described in A.R.S. § 16–924. After
investigating the matter, Polk issued an Order
Requiring Compliance on October 17, 2013, outlining
her findings that Appellants had coordinated their
activities in violation of Title 16, Chapter 6, of the
Arizona Revised Statutes. As a result of the
coordination, BLA’s expenditures were deemed to be
in-kind contributions to the TH4AGC. That Order
required Horne and the TH4AGC to amend their
2010 Post-General Election Report to include the
expenditures by the BLA as in-kind contributions.
Additionally, that Order required them to refund
$397,378.00, which was the amount deemed in-kind
contributions in excess of the appropriate limits.
That Order also required Winn and the BLA to
amend their 2010 Post-General Election Report to
reflect the coordinated nature of the BLA’s
expenditures.

A61
On October 31, 2013, Appellants filed their
Notice of Appeal and Request for Hearing. Polk
issued a Notice of Hearing setting the matter for a
hearing before the Office of Administrative
Hearings,
an
independent
state
agency.
Administrative Law Judge Tammy Eigenheer held
that hearing on February 10, 11, and 12, 2014. At
that hearing, the following evidence was presented.
In 2010, Horne was running for Arizona
Attorney General. During the primary election
campaign, Winn had worked as a volunteer for the
Horne campaign in the rural counties. (R.T. of Feb.
12, 2014, at 529.) On October 12, 2010, Winn began
to work with BLA for the general election. (Id. at
622–23.) Winn worked with Brian Murphy (Murphy)
of Lincoln Strategy Group to design and produce
BLA’s only political commercial. On Wednesday,
October 20, 2010, at 10:21 a.m., Murphy sent an email to Winn discussing the content of that
commercial:
I think the copy is pretty powerful. After
reviewing the polling data I have and
reviewing Tom’s ad I think he does a better
job of defending himself than we can, so I am
suggesting through this ad that our message
be used to drive her negatives. I believe this
commercial will certainly accomplish that.
Please let me know if we are okay to get in
the studio and start producing the spot.
(Record on Review (syntax and punctuation mirrored)
[R.O.R.] #98, at 000019.) At 10:40 a.m., Winn
contacted George Wilkinson, BLA’s treasurer, and
made arrangements to meet over the noon hour. (R.T.

A62
of Feb. 12, 2014, at 561.) At 2:19 p.m., Horne called
Winn and spoke for 8 minutes until 2:27 p.m.. (R.O.R.
#99, at 000022.) At 2:24 p.m., Murray e-mailed the
unedited voice-over file for BLA’s commercial. (R.O.R.
#101, at 000043–44.) At 2:29, Winn responded as
follows:
We do not like that her name is mentioned 4
times and no mention for Horne. We are
doing a re-write currently and will get back
to you. Too negative and takes away from the
message we wanted which we want to hire
the next AG to protect and defend Arizona
against the federal government. I will get
back to you shortly Brian sorry for the
confusion except I have several masters.
(R.O.R. #101, at 000043.) At 2:30 p.m., Murray
responded that he needed to stop production then.
(Id.) At 2:37 p.m., Winn responded:
Yes I will have it worked out by 5:30. They
feel this leaves people with her name 4X and
with no mention of Tom It is like saying
don’t think about a pink elephant . . so you
think about the pink elephant.
(R.O.R. #101, at 000043.) At 2:53 p.m., Murray
responded:
It is kind of the point, driving her negatives.
We don’t want Tom’s name associated with
the negative messaging. . . .
(R.O.R. #101, at 000043.) At 2:59 p.m., Winn

A63
responded:
The concern is you can get out her negatives
without saying her name 4 times. I have two
very strong personalities debating this
moment she lacks name recognition we do
not want to help her in that regard is the
argument.
(R.O.R. #101, at 000043.)
At 3:01 p.m., Winn placed a telephone call to
Horne, but the records show it lasted only 1 minute.
(R.O.R. #99, at 23.) At 3:11 p.m., Winn e-mailed
Murray the revised script with this comment: “I
think I prevailed no mention of Tom thanks for what
you said I believe this times out Let met know.”
(R.O.R. #98, at 000018–19.) Murray and Winn then
exchanged e-mails on the length and the wording
until 3:25 p.m. (Id. at 000018.) At 3:21 p.m., Horne
called Winn, and they spoke for 4 minutes. (R.O.R.
#99, at 23.)
On October 27, 2010, Ryan Ducharme
(Ducharme) (a Republican who was working for a
different campaign) sent Horne the following e-mail:
Recent polls show you losing ground amongst
independents to Rotellini and her starting to
pick up more Reps than you are picking up
Dems. Bleeding needs to be stopped.
Allegations and smears against you by DC
group starting to peel away votes. They need
to be addressed as desperate last minute
attacks with no basis in truth.
(R.O.R. #107, at 000121–22.) At 1:45 p.m., Ducharme

A64
sent another e-mail to Horne and Kim Owens (who
was involved in the Horne Campaign):
I would link attacks directly to Rotellini as
someone behind in the polls trying to hide
from her record (SB1070, ties to unions
calling for AZ boycott, etc.) The truth, once
known, will undermine Rotellini’s credibility
and call in to question her character
– a very important quality for Inds.
You are much stronger in rural AZ.
–Ryan
(R.O.R. #107, at 000121.) At 1:47 p.m., Horne
forwarded both messages to Casey Phillips, a
regional director for the Republican State
Leadership Committee. (Id.) At 2:02 p.m., Horne
attempted to forward the e-mail chain to Winn, with
the following message:
I forwarded this to casey. Maybe with this
we can. Try again for the hundred k.
(R.O.R. #107, at 000121.) At 2:05 p.m., Horne
received a notice that the attempt to forward the email chain had failed, so at 2:10 p.m., Horne again
attempted to send the e-mail chain to Winn, and this
time she received it. (Id. at 000120.)
At 2:31 p.m., Winn forwarded the entire email chain to Murray with the message, “this just
came into me read below.” (R.O.R. #107, at 000120.)
At 2:55 p.m., Murray sent the e-mail chain to Steve
Sparks, the firm’s attorney, with this message:

A65
Steve,
I wanted to make you aware of an incident
that occurred with one of our clients.
Kathleen is running an IE committee called
Business Leaders of Arizona which supports
Tom Horne for AG. I was hire[d] to do the TV
component. I warned her on numerous
occasions that she needed to cease contact
with the candidate and any agents of the
campaign. I then received the following
email. I then called her and informed her
again that she should not have any contact.
She assured me that this was unsolicited and
had not in several days.
As our firm’s attorney I wanted to make you
aware of this situation should something
arise at a later date.
Thanks, B
(R.O.R. #107, at 000120.)
On April 14, 2014, the ALJ issued her
Administrative Law Judge Decision containing 108
Findings of Fact and 60 Conclusions of Law. The
ALJ concluded with a Recommended Order that Polk
vacate her Order Requiring Compliance.
On May 14, 2014, Polk issued her Final
Decision and Order. In that Final Decision and
Order, Polk accepted all 108 of the ALJ’s Findings of
Fact, accepted 51 of the ALJ’s Conclusions of Law,
and rejected nine of the ALJ’s Conclusions of Law.
Polk found the evidence presented showed Horne
and Winn discussed the wording of the commercial
during their telephone conversations on Wednesday,
October 20, 2010, and those discussions resulted in
changes in the wording of that commercial. Polk

A66
further found the evidence presented of the October
27, 2010, e-mail from Horne to Winn showed Horne
was trying to get Winn to raise another $100,000
and spend it on the campaign. Polk rejected the
ALJ’s Recommended Order and affirmed her Order
Requiring Compliance.
On May 29, 2014, Appellants filed their Notice
of Appeal for Judicial Review of Administrative
Decision. This Court has jurisdiction pursuant to
A.R.S. § 12–124(A) and A.R.S. § 12– 905(A).
II. GENERAL STANDARDS FOR REVIEW.
The Arizona statutory authority and case law define
the scope of administrative review:
In reviewing an agency’s decision pursuant
to the Administrative Review Act, the
superior court must affirm the agency action
unless it is “not supported by substantial
evidence, is contrary to law, is arbitrary and
capricious or is an abuse of discretion.”
Carlson v. Arizona St. Pers. Bd., 214 Ariz. 426, 153
P.3d 1055, ¶ 13 (Ct. App. 2007) (emphasis added),
quoting A.R.S. § 12–910(E).
The court must defer to the agency’s factual
findings and affirm them if supported by
substantial evidence. If an agency’s decision
is supported by the record, substantial
evidence exists to support the decision even
if the record also supports a different
conclusion.

A67
Gaveck v. Arizona St. Bd. of Podiatry Exam., 222
Ariz. 433, 215 P.3d 1114, ¶ 11 (Ct. App. 2009)
(citations omitted).
[I]n ruling on the sufficiency of the evidence
in administrative proceedings, courts should
show a certain degree of deference to the
judgment of the agency based upon the
accumulated experience and expertise of its
members.
Croft v. Arizona St. Bd. of Dent. Exam., 157 Ariz.
203, 208, 755 P.2d 1191, 1196 (Ct. App. 1988).
A trial court may not function as a “super
agency” and substitute its own judgment for
that of the agency where factual questions
and agency expertise are involved.
DeGroot v. Arizona Racing Comm’n, 141 Ariz. 331,
336, 686 P.2d 1301, 1306 (Ct. App. 1984).
[The reviewing court must] view the evidence
in a light most favorable to upholding the
Board’s decision and “will affirm that
decision if it is supported by any reasonable
interpretation of the record.”
Baca v. Arizona D.E.S., 191 Ariz. 43, 46, 951 P.2d
1235, 1238 (Ct. App. 1998) (cites omitted).
A question of statutory interpretation
involves a question of law, and [the
reviewing court] is not bound by the trial
court’s or the agency’s conclusions [about]
questions of law.
Siegel v. Arizona St. Liq. Bd., 167 Ariz. 400, 401, 807
P.2d 1136, 1137 (Ct. App. 1991).

A68
On appeal, [the reviewing court] is free to
draw its own conclusions in determining if
the Board properly interpreted the law;
however, the Board’s interpretation of
statutes and . . . regulations is entitled to
great weight.
Baca, 191 Ariz. at 45–46, 951 P.2d at 1237–38.
Judicial deference should be given to
agencies charged with the responsibility of
carrying out specific legislation, and
ordinarily an agency’s interpretation of a
statute or regulation it implements is given
great weight. However, the agency’s
interpretation is not infallible, and courts
must remain the final authority on critical
questions of statutory construction.
U.S. Parking Sys. v. City of Phoenix, 160 Ariz. 210,
211, 772 P.2d 33, 34 (Ct. App. 1989) (citations
omitted).
III.
ISSUE:
WAS
THERE
SUBSTANTIAL
EVIDENCE TO SUPPORT THE ACTION OF THE
AGENCY, AND WAS THE ACTION OF THE
AGENCY CONTRARY TO LAW, ARBITRARY AND
CAPRICIOUS, OR AN ABUSE OF DISCRETION.
Appellants contend the evidence does not
support Appellee’s finding that Winn and BLA
coordinated efforts with Horne (Appellants’
Argument F), while Appellee contends the evidence
does support that finding (Appellee’s Argument A).
In reviewing the actions of an agency, the Arizona
Court of Appeals has said the following:

A69
The court may not intervene if there is “any”
evidence to support the administrative
decision, and should not weigh the evidence
in making that determination. We will not
substitute our judgment for that of the
agency if it was persuaded by the probative
force of the evidence before it. We will not
substitute our judgment for that of the
board, even where the question is faulty or
debatable and one in which we would have
reached a different conclusion had we been
the original arbiter of the issues raised by
the application.
Blake v. City of Phoenix, 157 Ariz. 93, 96, 754 P.2d
1368, 1371 (Ct. App. 1988); accord, Stant v. City of
Maricopa Employee Merit Board, 234 Ariz. 196, 319
P.3d 1002, ¶ 18 (Ct. App. 2014). This Court
concludes there was evidence in the record that
supported Appellee’s finding that Winn and BLA
coordinated efforts with Horne. Thus, this Court
“will not substitute [its] judgment for that of the
agency.”
Appellants make several challenges to the
administrative review process as applied in this
matter. Acknowledging that the actions of the
Administrative Law Judge are only advisory, Horne
contends: (1) The statute should not apply when the
“agency” is a Special Arizona Attorney General or a
County Attorney and thus the agency here should
not have the right to “overrule” the ALJ’s
recommended decision (Appellants’ Argument A); (2)
to the extent the statute would allow the “agency” to
“overrule” (decline to accept) the recommended

A70
decision of the ALJ, the statute is unconstitutional
as a denial of due process (Appellants’ Argument B);
and (3) it is not logical to allow the head of an
agency, who never saw the live testimony of the
witnesses, to make credibility determinations
(Appellants’ Argument E). Appellants have provided
to this Court authorities and arguments in support
of their position. Appellee contends the statute
properly allows an agency to reject the ALJ’s
recommended decision and doing so does not deny
due process, and the head of an agency may make
credibility determinations when based on an
assessment of conflicts in the testimony, rather than
on the demeanor of a witness (Appellee’s Argument
B-2). Appellee has provided to this Court authorities
and arguments in support of her position. This Court
concludes the authorities and arguments provided by
Appellee are well- taken, and this Court adopts those
authorities and arguments in support of its decision.
Finally, Appellants make several challenges to
the statutory framework: (1) The relevant statutes
should not apply to Business Leaders of Arizona
because the commercial did not contain such words
as “vote for,” “elect,” “reject,” “support,” “endorse,”
“cast your ballot for,” “vote against,” “defeat,” or
“reject” (Appellants’ Argument D); (2) the statute
limiting political contributions violates the United
States Constitution and the Arizona Constitution
because the limits were too low (Appellants’
Argument G); and (3) the standard of proof should be
by clear and convincing evidence rather than by a
preponderance of the evidence (Appellants’ Argument
C). Appellants have provided to this Court
authorities and arguments in support of their
position. Appellee contends: (1) The definition of

A71
“expressly advocates” is constitutional as applied to
this case (Appellee’s Argument B-4); (2) the
contribution limits in the statute are constitutional
(Appellee’s Argument B-3); (3) Proof by a
preponderance of the evidence is a proper standard
(Appellee’s Argument B-1). Appellee has provided to
this Court authorities and arguments in support of
her position. This Court concludes the authorities
and arguments provided by Appellee are well-taken,
and this Court adopts those authorities and
arguments in support of its decision.
IV. CONCLUSION.
Based on the foregoing, this Court concludes
there was substantial evidence to support the action
of the agency, and the action of the agency was not
contrary to law, was not arbitrary or capricious, and
was not an abuse of discretion. This Court further
determines there is no just reason to delay entry of
judgment and no further matters remain pending,
and thus this judgment is entered pursuant to Rule
54(c).
If any party wishes to appeal this Court’s
Decision to the Arizona Court of Appeals, that party
must do so pursuant to A.R.S. § 12–913 and Rule
9(a) of the Arizona Rules of Civil Appellate
Procedure. See Eaton v. AHCCCS, 206 Ariz. 430, 79
P.3d 1044, ¶ 7 (Ct. App. 2003) (“The [Arizona Court
of Appeals] will allow an administrative decision to
stand if there is any credible evidence to support it,
but, because we review the same record, we may
substitute our opinion for that of the superior court.”
“And when consideration of the administrative
decision involves the legal interpretation of a

A72
statute, this court reviews de novo the decisions
reached by the administrative officer and the
superior court.”); accord, Pendergast v. Arizona St.
Ret. Sys., 234 Ariz. 535, 323 P.3d 1186, ¶ 10 (Ct.
App. 2014) (“On appeal, we review de novo the
superior court’s judgment, reaching the same
underlying issue as the superior court: whether the
administrative action was not supported by
substantial evidence or was illegal, arbitrary and
capricious, or involved an abuse of discretion.”),
quoting Carlson v. Arizona St. Pers. Bd., 214 Ariz.
426, 153 P.3d 1055, ¶ 13 (Ct. App. 2007); Pima Cty.
Hum. Rts. Comm. v. Arizona D.H.S., 232 Ariz. 177,
303 P.3d 71, ¶ 7 (Ct. App. 2013) (“Because the
superior court did not hold an evidentiary hearing or
admit any new evidence, we review its judgment de
novo, ‘reaching the same underlying issue as the
superior court.’ ”); Blancarte v. Arizona D.O.T., 230
Ariz. 241, 282 P.3d 442, ¶ 7 (Ct. App. 2012)
(“Applying a de novo review of the superior court’s
decision ”); Ritland v. Arizona St. Bd. Med. Exam.,
213 Ariz. 187, 140 P.3d 970, ¶ 7 (Ct. App. 2006) (“In
reviewing the Board’s decision, we are not bound by
the superior court’s judgment because we review the
same record.”).
IT IS THEREFORE ORDERED affirming
the Final Decision and Order issued May 14, 2014,
by Appellee Special Arizona Attorney General and
Yavapai County Attorney Sheila Polk.
IT IS FURTHER ORDERED signing this
minute entry as a formal Order of the Court.
/s/ Crane McClennen
THE HON. CRANE MCCLENNEN

A73
JUDGE OF THE SUPERIOR COURT
103020141030•
NOTICE: LC cases are not under the e-file system.
As a result, when a party files a document, the
system does not generate a courtesy copy for the
Judge. Therefore, you will have to deliver to the
Judge a conformed courtesy copy of any filings.

A74
IN THE OFFICE OF THE ADMINISTRATIVE
HEARINGS
No. 14F-001-AAG
IN THE MATTER OF:
TOM HORNE, individually; Tom Horne for
Attorney General Committee (SOS Filer ID
2010 00003); KATHLEEN WINN, individually;
Business Leaders for Arizona (SOS Filer ID
2010 00375),
ADMINISTRATIVE LAW JUDGE DECISION
HEARING: February 10, 2014, through
February 12, 2014, with the record held open until
March 24, 2014.
APPEARANCES: The Yavapai County
Attorney’s Office was represented by Deputy County
Attorney Jack H. Fields and Deputy County
Attorney Benjamin D. Kreutzberg. Tom Horne and
the Tom Horne for Attorney General Committee
were represented by Michael D. Kimerer and M.E.
“Buddy” Rake, Jr. Kathleen Winn and Business
Leaders for Arizona were represented by Timothy A.
La Sota and Larry L. Debus.
ADMINISTRATIVE LAW JUDGE: Tammy
L. Eigenheer
OVERVIEW
This case involves an appeal of a
determination by the Yavapai County Attorney’s
Office made pursuant to its authority under A.R.S §
16-924(A) that Tom Horne, the Tom Horne for
Attorney General Committee, Kathleen Winn, and

A75
Business Leaders for Arizona (BLA) (collectively,
Appellants) violated the provisions of Title 16,
Chapter 6 of the Arizona Revised Statutes by
consulting and conferring on the contents of BLA’s
political advertisement that aired during the 2010
general election for Attorney General. The
Administrative Law Judge concludes that the
Yavapai County Attorney’s Office failed to prove by
a preponderance of the evidence that there was any
illegal coordination between M. Horne, the Tom
Horne for Attorney General Committee, Ms. Winn,
and BLA.
FINDINGS OF FACT
Order Requiring Compliance
1.
On June 27, 2013, the Arizona Secretary of
State issued a letter to the Arizona Attorney
General’s Office stating that reasonable cause
existed to believe that Appellants had violated
campaign finance laws during the 2010 general
election for Attorney General.
2.
On June 27, 2103, the Arizona Attorney
General’s Office, through Solicitor General Robert
Ellman, appointed Yavapai County Attorney Sheila
Polk as a Special Arizona Attorney General to fulfill
the Attorney General’s role as described in A.R.S. §
16-924.
3.
On October 17, 2013, the Yavapai County
Attorney’s Office issued an Order Requiring
Compliance outlining its findings that Appellants
had coordinated in violation of Title 16, Chapter 6 of
the Arizona Revised Statutes. As a result of the
coordination, BLA’s expenditures were deemed inkind contributions to the Tom Horne for Attorney
General Committee.

A76
4.
Mr. Horne and the Tom Horne for Attorney
General Committee were ordered to amend their
2010 Post-General Election Report to include the
expenditures by BLA as in-kind contributions. They
were also ordered to refund the amount of the
deemed in-kind contributions in excess of the
appropriate limits, which totaled $397,378.00, to the
persons
or
organizations
that
made
the
contributions.
5.
Ms. Winn and BLA were ordered to amend
their 2010 Post-General Election Report to reflect
the coordinated nature of BLA’s expenditures.
6.
On October 31, 2013, Appellants filed their
Notice of Appeal and Request for Hearing.
7.
A Notice of Hearing was issued by the
Yavapai County Attorney’s Office setting this
matter for a hearing before the office of
Administrative Hearings, an independent state
agency.
Background
8.
Ms. Winn formed BLA on December 23, 2009.
According to Ms. Winn, the original purpose of BLA
was to oppose Andrew Thomas in the Attorney
General primary election.¹*
9.
According to Ms. Winn’s March 30, 2012
affidavit, BLA was funded by approximately
$2,500.00 that was given to a graphics art designer
who absconded with the funds. After that initial
expenditure, BLA was inactive and Ms. Winn
continued to file the required forms with the
Arizona Secretary of State that demonstrated no
additional funds had been raised.²
_______________________
*Footnotes are at end of document

A77
10.
Ms. Winn was volunteer for Mr. Horne’s
campaign from early 2010 until shortly after the
primary election. Ms. Winn was the out-of-county
coordinator for all 14 Arizona counties, with the
exception of Maricopa County. Ms. Winn traveled
extensively during the primary election to support
Mr. Horne’s election bid.³
11.
According to the Amended 2010 Post-General
Election Report filed by Ms. Winn, between October
20, 2010, and October 29, 2010, BLA raised
$513,340.00 from individuals and businesses,
including a $350,000.00 contribution from the
Republican Sate Leadership Committee (RSLC).⁴
Yavapai County Attorney’s Office’s Investigation
12.
The Yavapai County Attorney’s Office has
premised its case on the activities of M. Winn and
Mr. Horne on October 20, 2010, and October 27,
2010, to show there was coordination between Ms.
Winn and BLA with Mr. Horne and the Tom Horne
for Attorney General Committee.
13.
In reaching its conclusion, the Yavapai
County Attorney’s Office reviewed the joint
investigation of the Federal Bureau of Investigation
(FBI) and Maricopa County Attorney’s Office. At
hearing, the Yavapai County Attorney’s Office’s
primary witness was FBI Special Agent Brian
Grehoski, who with his partner, FBI Special Agent
Mervin Mason,⁵ conducted the investigation,
interviewed witnesses, reviewed records, and wrote
reports.
14.
Agent Grehoski testified as to his
investigation and review of phone and email records
during the relevant time period, and more
specifically on October 20, 2010, and October 27,
2010.

A78
October 20, 2010 Timeline
15.
The following timeline of events of October
20, 2010, details relevant phone calls and emails
between Mr. Horne, Ms. Winn, Brian Murray,
apolitical consultant with Lincoln Strategy Group
(LSG), and others that the Yavapai County
Attorney’s Office relied on to assert that Mr. Horne
and Ms. Winn coordinated as to the advertisement
Mr. Murry was producing.⁶
16.
At 9:47 a.m. Ms. Winn spoke to Greg Harris,
an attorney who had put her in contact with one of
his clients who had contributed $30,000.00 to BLA.⁷
17.
10:21 a.m., Mr. Murray emailed Ms. Winn
with an initial script of the advertisement.
The email read as follows:
I think the copy is pretty powerful. After
reviewing the polling data I have and
reviewing (Mr. Horne’s) ad I think he does a
better job of defending himself than we can,
so I am suggesting through this ad that our
messaging be used to drive [Democratic
general election opponent Felicia Rotellini’s]
negatives: I believe this commercial will
certainly accomplish that. Please let me
know if we are okay to get in the studio and
start producing the spot.
....
VO: “Arizona needs an Attorney General
who will be tough on illegal immigration.
But liberal Felecia Rotellini isn’t.
She openly opposes SB 1070.
It gets worse:

A79
When liberal special interests’ groups
launched a boycott against Arizona,
Rotellini worked with them. She took
thousands of their dollars for her campaign;
Selling Arizona out.
Felicia Rotellini: opposing SB 1070,
boycotting Arizona, sell us out.
Felicia Rotellini: If she wins, Arizona loses.
Paid for by Business Leaders for Arizona”⁸
18.
At 10:40 a.m. Ms. Winn called BLA’s
treasurer, George Wilkinson.⁹
19.
At 2:19 p.m., Mr. Horne called Ms. Winn and
the two spoke for eight minutes, until approximately
2:27 p.m.¹⁰
20.
At 2:24 p.m. Mr. Murray sent an email to Ms.
Winn with the unedited voice-over file of the BLA
advertisement.¹¹
21.
At 2:29 p.m. approximately two minutes after
finishing her conversation with Mr. Horne, Ms.
Winn sent an email to Mr. Murray. The email read
as follows:
We do not like that [Ms. Rotellini’s] name is
mentioned 4 times and no mention for
Horne. We are doing a re-write currently
and will get back to you. Too negative and
takes away from the message we wanted
which we want to hire the next AG to
protect and defend Arizona against the
federal government. I will get back to you
shortly Brian sorry for the confusion except I
have several masters.¹²

A80
22.
At 2:30 p.m., Mr. Murray emailed Ms. Winn
that he would stop production based on the concerns
that Ms. Winn raised.¹³
23.
At 2:37 p.m., Ms. Winn emailed Mr. Murray.
The email read as follows:
Yes! Will have it worked it outby 5:30. They
feel this leaves people with [Ms. Rotellini’s]
name 4X and with no mention of Tom. It is
like saying do not think about a pink
elephant . .so, you think about the pink
elephant.¹⁴
24.
At 2:37 p.m. Ms. Winn called Mr. Horne from
her office landline and the two spoke for 11 minutes
until approximate 2:48 p.m.
25.
At 2:50 p.m. Ms. Winn emailed Mr. Murray,
“Okay it will be similar message just some
changes.16
26.
At 2:50 p.m., Mr. Murray emailed Ms. Winn
that the message should be “driving [Ms. Rotllini’s]
negatives” and that Mr. Horne’s name should not be
“associated with the negative messaging.”¹⁷
27.
At 2:59 p.m., Ms. Winn sent another email to
Mr. Murray. The email read as follows:
The concern is you can get out [Ms.
Rotellini’s] negatives without paying [M.
Rotellini’s] name 4 times. I have two very
strong personalities debating this moment
[M. Rotellini] lacks name recognition we
don’t want to help her in that regard is the
argument.¹⁸

A81
28.
At 3:00 p.m., Ms. Winn and Mr. Murray
exchanged emails regarding payment details for the
advertisement.¹⁹
29.
At 3:01 p.m. Ms. Winn attempted to call Mr.
Horne.²⁰
30.
At 3:11 p.m., Ms. Winn emailed Mr. Murray a
revised script with the statement: “I think I
prevailed no mention of Tom thanks for what you
said. I believe this times out let me know.”²¹
31.
At 3:13 p.m., Mr. Murray emailed Ms. Winn
that the script was still too long.²²
32.
At 3:14 p.m., Ms. Winn emailed Mr. Murray
and suggested removing one line from the script.²³
33.
At 3:15 p.m. Ms. Winn received a telephone
call from Mr. Harris that lasted approximately three
minutes.²⁴
34.
At 3:16 p.m., Mr. Murray emailed Ms. Winn
that the script was still too long.²⁵
35.
At 3:21 p.m. Mr. Horne called Ms. Winn and
the two spoke for four minutes until approximately
3:25 p.m.²⁶
36.
At 3:25 p.m., Ms. Winn emailed Mr. Murray
the following message:
Change to : Arizona needs the RIGHT
attorney general taking money from labor
unions and special interest groups.²⁷
37.
On October 22, 2010, Mr. Murray ordered
that the advertisement start airing on Monday
October 25. 2010

A82
October 27, 2010. Email
38.
On October 27, 2010, Ryan Ducharme, who
did telephone polling for John Huppenthal, sent Mr.
Horne the following email:
Recent polls show you losing ground
amongst independents to Rotellini and her
starting to pick up more Reps than you are
picking up Dems. Bleedings needs to be
stopped. Allegations and smears against you
by the DC group starting to peel away votes.
They need to be addressed as desperate lastminute attacks with no basis in truth.²⁹
39.
At 1:45 p.m. Mr. Ducharme resent that email
to Mr. Horne and a member of the Tom Horne
campaign with the additional message:
I would link attacks directly to Rotellini as
someone behind in the polls trying to hide
from her record (SB 1070, ties to unions
calling for AZ boycott, etc.) The truth, once
known, will undermine Rotellini’s credibility
and call into question her character a very
important quality for Inds. You are much
stronger in rural AZ.³⁰
40.
Mr. Horne then forwarded the email with
both messages from M. Ducharme to Casey Phillips.
Regional director for the RSLC.³¹
41.
At 2:02 p.m., Mr. Horne attempted to forward
the email chain to Ms. Winn, with the message “I
forwarded this to Casey. Maybe with this we can try
again for the hundred K.”³²

A83
42.
At 2:05 p.m., Mr. Horne received a notice that
the email chain could not be delivered.³³
43.
At 2:10 p.m., Mr. Horne resent the entire
email chain to Ms. Winn.³⁴
44.
At 2:31 p.m., Ms. Winn forwarded the entire
email chain to Mr. Murray with the message, “This
just came into me read below.”³⁵
45.
Mr. Murray then sent the email on to his
attorney indicating his concern that Ms. Winn was
in contact with Mr. Horne regarding the campaign.³⁶
FBI Special Agent Brian Grehoski’s Testimony
46.
Agent Grehoski testified that during his
investigation, he obtained and reviewed the
telephone and email records of the relevant parties.
Based on his review of those records, he was able to
create the timeline of events described above.
47.
Agent Grehoski stated that Verizon Wireless
keeps its call detail records, or metadate for a
period of one year. Because the FBI opened it s
investigation on December 9, 2011, Verizon Wireless
no longer had the metadate for the call made and
received by Ms. Winn and Mr. Horne during October
2010.³⁷
48.
Agent Grehoski also indicated that based on a
review of the Verizon Wireless policies regarding
chargeable time, the lengths of the calls indicated on
the records were calculated starting from the time
the sender pressed “send” and ending when the call
disconnected from the system and were rounded up
to a full minute.³⁸
49.
Agent Grehoski testified that a review of Mr.
Horne’s emails revealed 129 emails relating to a

A84
real estate deal and none of those emails made any
mention of Ms. Winn.³⁹
50.
The question of Agent Grehoski’s testimony
with respect to conversations he and Agent Mason
had with Greg Tatham, a commercial real estate
broker, on May 31, 2012, became an issue at
hearing.
51.
At hearing, Agent Grehoski testified that he
specifically recalled that he and Agent Mason had
two substantive telephone conversations with Mr.
Tatham on May 31, 2012.⁴⁰
52.
Agent Grehoski indicated the first telephone
call was initiated by Agent Mason and that during
That during that conversation, when asked if Mr.
Horne had consulted with Ms. Winn regarding the
sale of the property at y Avenue and McDowell, Mr.
Tatham denied any knowledge.⁴¹
53.
Agent Grehoski testified the call ended early
because Mr. Tatham was not at his office and/or did
not have the documents on hand. After the
telephone call, Agent Grehoski testified that he and
Agent Mason discussed the conversation and agreed
that the next time they spoke, they would ask
broader questions.⁴²
54.
Agent Grehoski stated that during the second
substantive conversation, he and Agent Mason
asked Mr. Tatham if he was aware of Mr. Horne
conferring with anyone regarding the sale of
property, and Mr. Tatham denied having
knowledge. Mr. Tatham made a recording of this
conversation.⁴³
55.
A review of Agent Mason and Mr. Tatham’s
telephone records show only one telephone call
between them on May 31, 2012.⁴⁴ Therefore, the
record supports a finding that the first substantive

A85
telephone conversation to which Agent Grehoski
testified did not occur.
Greg Tatham’s Testimony
56.
Mr. Tatham testified that he was the
commercial real estate broker for Mr. Horne on the
purchase side of a “1031 exchange” in October 2010
and that he was responsible for the removal of an
underground storage tank at the 1515 North y
Avenue property.⁴⁵
57.
Mr. Tatham stated that he was not the only
person Mr. Horne consulted with on real estate
matters. ⁴⁶
58.
Mr. Tatham testified that at no time during
the single conversation he had with Agents
Grehoski and Mason on May 31, 2012, did they ask
specifically about Ms. Winn’s involvement with the
real estate transaction in October 2010.⁴⁷
Kathleen Winn’s Testimony
59. Ms. Winn testified that she was out of the state
in early October 2010, and that when she returned
around October 8, 2010, or October 9, 2010, she
contacted Brett Mecum, Executive Director of the
Republican Party, to determine if any resources
were available to support a Republican candidate.
Mr. Mecum informed Ms. Winn that there were
funds available from the RSLC, but that the funds
would have to be given to an independent
expenditure committee as the Republican Party
could not accept funds directly.⁴⁸
60. Ms. Winn then met with Mr. Horne on October
11, 2010 or October 12, 2010, to discuss her plans to

A86
operate BLA as an independent expenditure
committee supporting Mr. Horne’s campaign for
Attorney General.⁴⁹ During that meeting Mr. Horne
informed Ms. Winn of the “rules” with respect to an
independent expenditure committee.⁵⁰
61. Later, Mr. Horne also advised Ms. Winn that
she should consider contacting an attorney for
further advice.⁵¹ Following Mr. Horne’s advice Ms.
Winn contacted Lisa Houser, an attorney on October
13, 2010.⁵²
62. On October 13, 2010, Ms. Winn also contacted
Chuck Diaz, a potential donor to solicit a
contribution to BLA.⁵³ Mr. Diaz expressed an
interest in contributing and invited Ms. Winn to his
home in Tucson to meet with him.⁵⁴
63.
On October 15, 2010, Ms. Winn went to Mr.
Diaz’s home and he gave Ms. Winn a check for
$5,000.00 on that day.⁵⁵
64.
While in Tucson, Ms. Winn also met with
Keith Bruner, a potential campaign contributor, and
discussed BLA. Ms. Winn had already spoken to Mr.
Bruner’s attorney, Mr. Harris , on or about October
12, 2010, regarding BLA, and Mr. Harris referred
Ms. Winn to contact Mr. Bruner.⁵⁶
65. Ultimately, Mr. Bruner contributed $30,000.00
to BLA through two corporate entities. NCP Finance
Limited and Texas Loan Corporation.⁵⁷
66.
In her conversations with Mr. Mecum, Ms.
Winn asked him to recommend firms to assist her
with BLA campaign. Ms. Winn was referred to at
least two firms and she placed calls to those firms.
LSG returned her call first, so went forward with
that firm.⁵⁸
67.
Mr. Murray on behalf of LSG informed Ms.
Winn that to be considered a viable campaign in the

A87
eyes of the RSLC, BLA would have to raise at least
$50,000.00 from other sources.⁵⁹
68. In a conversation between Ms. Winn and with
Christine Newman, Mr. Horne’s sister, Ms.
Newman asked about BLA and Ms. Winn explained
that she had raised $35,000.00 and was working to
get the additional funds to reach the $50,000.00
threshold that Mr. Murray indicated was necessary
to be considered viable. Ms. Newman then
volunteered to contribute the additional $15,000.00
at that time.⁶⁰
69. After BLA had raised $50,000.00, Mr. Murray
contacted the RSLC to determine if it was willing to
contribute any funds to assist with Mr. Horne’s
campaign, Mr. Murray
was able to secure a
contribution of $350,000.00 from RSLC, even though
he originally believed there may have been
$450,000.00 available.
70. BLA then worked with Mr. Murray to produce
and air a television advertisement expressly
advocating the defeat of Felicia Rotellini.
71.
In producing the advertisement, a number of
emails were exchanged between Ms. Winn and Mr.
Murray on October 20, 2010 as outlined in Findings
of Fact Nos. 15 through 36.
72.
On October 20, 2010, Ms. Winn met with
George Wilkinson, BLA’s treasurer, in Mesa.⁶¹ Ms.
Winn indicated she wanted to share the
advertisement’s script that Mr. Murray had emailed
her with Mr. Wilkinson to get his opinion.
73.
With respect to various phrases and/or terms
used in the emails described above, Ms. Winn gave
the following explanations:

A88
a. The “we” and “several masters” used in
the 2:29 p.m. email and the “they feel” used
in the 2:37 p.m. email to Mr. Murray
referred to BLA in general, Mr. Wilkinson in
particular, and Mr. Harris and his client
who had contributed a great deal of money
to BLA.⁶²
b. The “two strong personalities debating”
mentioned in the 2:59 p.m. email referred to
two coworkers in Ms. Winn’s office that she
had asked for their opinions.⁶³
74.
After the advertisement had been produced
and while it was airing, Ms. Winn had another
conversation with Ms. Newman, in which Ms.
Newman asked about BLA and the campaign. Ms.
Winn explained that BLA originally believed that it
would receive $450,000.00 from the RSLC but ended
up receiving only $350,000.00. Ms. Newman
volunteered to contribute $100,000.00 to make up
the difference. That contribution was wired to the
BLA account on October 27,2010.⁶⁴
75.
As to the October 27, 2010 email from Mr.
Ducharme that Mr. Horne had forwarded to her,
Ms. Winn testified that she did not read the entire
email when she received it. She saw it contained
polling data and believed that Mr. Murray might be
able to use the information to get additional funds
from the RSLC as Mr. Horne had suggested, so she
forwarded the email to Mr. Murray.⁶⁵
76.
Ms. Winn testified as to her extensive real
estate background. Mr. Winn has 27 to 28 years of
experience in real estate lending and real estate
sales. She was a real estate broker and a mortgage

A89
banker. At the time in question, Ms. Winn worked
at AmeriFirst Financial as a senior loan officer.⁶⁶
77.
Ms. Winn explained that throughout the
campaign, she assisted a number of people with real
estate and lending issues.⁶⁴
78. Ms. Winn testified that Mr. Horne was selling
property at ih ave and McDowell in Phoenix and
was doing a “1031” exchange,” a mechanism by
which a seller of a property can avoid tax
consequences by rolling proceeds of the sale into the
purchase of a new property. Ms. Winn was aware
Mr. Horne had been attempting to sell the property
for some time and had assisted in finding a potential
purchaser, Mike Hogarty, months prior, but that
sale fell through.⁶⁸
79. Ms. Winn testified what she knew Mr. Horne
was attempting to close the real estate transaction
during October 2010.⁶⁹
80.
Ms. Winn stated that her mother had surgery
on October 19, 2010; therefore, Ms. Winn was not
available to talk to Mr. Horne on that day.⁷⁰
81.
Ms. Winn maintained that Mr. Horne
informed her on October 20, 2010, that he had just
been informed that the revenue from the sale of his
property would not cover the funds necessary to
close on the purchase of a new property. Ms. Winn
state that Mr. Horne was using her as a sounding
board to consider different options and she
ultimately assisted him in applying for a loan to
make up the difference.⁷¹
82.
Ms. Winn testified that two of the
conversations that she had with Mr. Horne on
October 20, 2010, the 2:19 p.m. call of 8 minutes and
the 2:37 p.m. call of 11 minutes, were regarding the
regarding the real estate deal. Ms. Winn testified

A90
she believe the first call was probably when Mr.
Horne was describing his nee for a loan to close the
real estate deal and the second call was when she
filled out a loan application for him.⁷²
83.
Ms. Winn denied any coordination with Mr.
Horne with respect to the BLA advertisement. Ms.
Winn stated,
I appreciate that both things were going on
at the same time, except both things were
going on at the same time, and they were
separate matters. I didn’t combine them. I
didn’t make fruit salad out of them. I dealt
with Mr. Horne on his real estate matters,
and I dealt with the – putting an ad
together. And I did them separately and I
didn’t combine them. And I didn’t involve
either party in what was going on.
And I dealt with Brian Murry to get the ad
done, and got the ad done. We were on a
tight deadline. I met my deadline. I did
everything I was supposed to do to get that
ad produced.
I also helped my friend Tom Horne with his
real estate transaction. It doesn’t mean
there was an inner – a commingling of these
events.⁷³
Ms. Winn’s Affidavits
84. In her May 25, 2012, affidavit Ms. Winn stated
that “Activity for the independent campaign did not
begin until October 11th, and the first contribution
was made on October 20th.⁷⁴

A91
85. Ms. Winn admitted during her testimony that
the statement was false. BLA’s activity began
around October 12, 2010, and the first contribution
was received on October 15, 2010.
86.
Ms. Winn also stated in her March 30, 2012
affidavit that “[I]t was my independent campaign,
my ideas, and my money I raised by my own efforts
that created the ad.”⁷⁵ In her May 30, 2012,
affidavit, Ms. Winn similarly stated that “I raised
every dollar for this campaign myself, produced the
advertisement, and bought the air time without the
assistance of anyone other than Mr. Murray.”
87.
However, Sharon Collins informed the FBI
during a February 17, 2012 inter view that she
referred Mr. Diaz to Ms. Winn.⁷⁷ During a February
21, 2012 interview with the FBI, Ms. Collins
reiterated that she put Mr. Diaz in contact with Ms.
Winn to help support Mr. Horne’s campaign.⁷⁸
88.
Ms. Winn’s emails to Mr. Murray on October
20, 2010, indicated she was consulting with someone
else as to the content and script of the
advertisement.
Mr. Horne’s Testimony
89.
Mr. Horne testified that Ms. Winn was an
extremely effective and productive volunteer during
the primary campaign and that as a result, they
became good personal friends.⁷⁹
90.
Mr. Horne stated that during the campaign,
he and other volunteers became aware that Ms.
Winn had been in the real estate business and that
many people went to her with real estate business
and that many people went to her with real estate
questions or concerns based on her expertise.⁸⁰

A92
91.
Mr. Horne indicated that on or about October
11, 2010, Ms. Winn approached him to let him know
that she was leaving to start an independent
expenditure campaign.⁸¹
92. Mr. Horne had a meeting with Ms. Winn to go
over the elections laws to ensure that she was aware
of what was and was not allowed under the statutes.
Mr. Horne provided Ms. Winn with a copy of the
statutes and highlighted relevant portions. Mr.
Horne also referred Ms. Winn to an attorney to
obtain further advice.⁸²
93.
In addition to the campaign, Mr. Horne also
had a real estate transaction pending at the same
time.
94.
Mr. Horne testified that he had first
attempted to sell the property at 1515 N. yt Ave in
2005, but several transactions since then had failed
mostly because the buyers could not obtain
financing.
95.
On October 19, 2010, Mr. Horne received
notification that at the time of closing on the new
property in Sun City West, he would be required to
pay no less than $100,000.00 and no more than
$217,000.00.⁸³
96.
Mr. Tatham was working on securing
financing, but Mr. Horne knew these matters could
often fall through and he felt insecure. Therefore,
Mr. Horne contacted Ms. Winn for advice.
97.
Mr. Horne testified that Ms. Winn was not
listed on any real estate documents because she was
not a broker or lender in the transaction, but merely
assisting him as a courtesy to a friend. This is
corroborated by a review of the real estate
documents.⁸⁴

A93
98.
Mr. Horne testified that he knew Ms. Winn
was unavailable October 19, 2010, because her
mother was having serious surgery. Therefore, the
first time he could talk to Ms. Winn about the real
estate transaction was on October 20, 2010.
99.
Mr. Horne stated that, while he could not
remember
the
specific
contents
of
their
conversations, he felt that the 3-minute call would
have been him asking about Ms. Winn’s mother, the
8-minute call would have been when he explained
the problem with the property, and the 11-minute
call would have been when Ms. Winn took the
information for his loan application.⁸⁵
100. Mr. Horne categorically denied discussing the
advertisement with Ms. Winn on October 20, 2010,
during any of their conversations.⁸⁶
101. Mr. Horne was aware that Ms. Winn did not
receive as much money as expected based on
October 27, 2010 article and various rumors from
people in the Republican Party.⁸⁷
102. Mr. Horne acknowledged that he received the
emails from Mr. Ducharme regarding the polling
numbers. Mr. Horne testified that because Mr.
Horne was worried about the polling date, he
forwarded the email chain to Ms. Winn in the hope
that she could use the information to raise more
money.⁸⁸
103.
Mr. Horne represented that he did not act
on Mr. Ducharme’s strategic advice because he did
not consider Mr. Ducharme to be an expert and Mr.
Horne did not pay any attention to Mr. Ducharme’s
suggestions.⁸⁹

A94
Other witnesses and evidence
104.
Mr. Wilkinson testified that he met with Ms.
Winn in Mesa and reviewed the script at that time.
Mr. Wilkinson stated that he believed the
advertisement was too negative and focused too
much on Ms. Rotellini.
105. Mr. Murray testified that Mr. Horne did not
have enough money behind his advertisement, so
his approach was to take what Mr. Horne had
“already done and build upon it.”⁹⁰
106. Mr. Murray stated that he created the
original script for the advertisement based on the
messaging of Mr. Horne.⁹¹ Mr. Murray indicated
that with the exception of some minor changes, he
wrote the final advertisement.⁹²
107. The original script read:
Arizona needs an Attorney General who will
be tough on illegal immigration.
But liberal Felecia Rotellini isn’t.
She openly apposes SB 1070.
It gets worse:
When liberal special interests groups
launched a boycott against Arizona,
Rotellini worked with them.
She took thousands of their dollars for her
campaign;
Selling Arizona out.
Felicia Rotellini: opposing SB 1070,
boycotting Arizona, selling us out.
Felicia Rotellini: If she wins, Arizona loses.
Paid for by Business Leaders of Arizona.⁹³

A95
108. The final script of the advertisement that aired
read:
The Federal Government is suing Arizona
but, Arizona needs the right Attorney
General
Liberal Felicia Rotellini isn’t.
She openly opposes SB 1070.
It gets worse: Rotellini took money from
labor unions and special interest groups who
boycott Arizona.
She sold Arizona out.
Opposing SB 1070, boycotting Arizona,
selling us out.
If Rotellini wins, Arizona loses.
Paid for by Business Leaders for Arizona.
Major funding by the Republican State
Leadership Committee (571) 480-4860.⁹⁴
CONCLUSIONS OF LAW
Standard of Proof
1.
Appellants argued that the standard of proof
in this matter should be clear and convincing
evidence based on the possibility that if the Order
Requiring Compliance were upheld and Appellants
failed to comply with the Order Requiring
Compliance within 20 days, the Yavapai County
Attorney’s Office
could seek to impose treble
damages under A.R.S §16—92)8) and A.R.S. 16-905
(J). Appellants argued that “[w]here the
consequences of establishing a conclusion can be a
punitive remedy, then that conclusion must be
established by clear and convincing evidence.”⁹⁵

A96
2.
The Order Requiring Compliance was issued
to Appellants pursuant to A.R. S. § 16-924(A). There
is no provision with A.R.S § 16-924 (A) that provides
for a civil penalty or any other form of punitive
remedy.
3.
It is undisputed that before imposing a civil
penalty for treble damages, the Yavapai County
Attorney’s Office would have to issue a separate
Order Assessing a Civil Penalty, from which
Appellants would have appeal rights. Appellants
argue any determination on an Order Assessing a
Civil Penalty would be a simple ministerial question
of whether Appellants had complied with the Order
Requiring Compliance within 20 days, and
therefore, that the heightened burden of proof
should apply to the underlying determination. The
cases cited by Appellants in support of such a
determination are not on point and are not
persuasive
4.
The Administrative Law Judge concludes
that burden of proof in this matter is an the Yavapai
County Attorney’s Office to establish by a
preponderance of the evidence that Appellants
violated the provisions of Title 16, Chapter 6 of the
Arizona Revised Statutes and the Order Requiring
Compliance issued pursuant to A.R.S. § 16-924(A)⁹⁶
was proper.⁹⁷
Use of Telephone and Email Records
5.
It is noted that throughout the proceedings,
Appellants referred to the unreliability of the
telephone and email records based on the lack of
metadata. While Appellants mentioned an expert
witness that they had standing by to testify as to

A97
the necessity of metadate to properly evaluate
electronic records, Appellants did not call the expert
witness during the hearing.
6.
Without expert testimony or other evidence
addressing the reliability of the electronic records,
the electronic records will be considered on their
face.
Applicable Law
7.
A.R.S § 16901(14) defines an “independent
expenditure” as
an expenditure by a person or political
committee, other than a candidate’s
campaign
committee,
that
expressly
advocates the election or defeat of a clearly
identified candidate, that is made without
cooperation
or consultation with any
candidate or committee or agent of the
candidate and that is not made in concert
with or at the request or suggestion of a
candidate, or any committee or agent of the
candidate.
Independent
expenditure
includes an expenditure that is subject to
the requirements of section 16-917, which
requires a copy of campaign literature or
advertisement to be sent to a candidate
named or otherwise referred to in the
literature or advertisement.
An expenditure is not an independent
expenditure if any of the following applies:
....
(b) There is any arrangement, coordination
or direction with respect to the expenditure
between the candidate or the candidate’s

A98
agent and the person making the
expenditure, including any officer, director,
employee or agent of that person.
....
(d) The expenditure is based on information
about the candidate’s plans, projects or
needs, or those of his campaign committee,
provided to the expending person by the
candidate or by the candidate’s agent or any
officer, member or employee of the
candidate’s campaign committee with a view
toward having the expenditure made.
8.
Independent expenditures are not considered
contributions to a candidate’s campaign.⁹⁸ In
contrast “[a]n expenditure by a political committee,
corporation, limited liability company, labor
organization or person that does not meet the
definition of an independent expenditure is an inkind contribution to the candidate and a
corresponding expenditure by the candidate unless
otherwise exempted.”⁹⁹
9.
Arizona has established contribution limits
that vary depending on the type of election and the
type of donor.¹⁰⁰ Arizona candidates cannot accept
contributions from corporations or limited liability
companies.¹⁰¹ All political committees in Arizona
must file periodic reports identifying all
contributions received. ¹⁰²
10.
Because Arizona statutes do not provide a
great deal of specificity with how to interpret
coordination activities, authorities often look to the
federal guidelines for instruction.¹⁰³ Federal law
provides for a three-prong coordination test to
determine whether a communication is coordinated.

A99
The three prongs-payment, content, and conductmust be met for a communication to be deemed
corrdinated.¹⁰⁴ The only prong issue in this matter is
the conduct prong.
11.
11 C.F.R. § 109.21(d) provides:
(d) Conduct standards. Any one of the
following types of conduct satisfies the
conduct standard of this section whether or
not there is agreement or formal
collaboration, as defined in paragraph (e) of
this section:
....
(2) Material involvement. This paragraph,
(d)(2), is not satisfied if the information
material to the creation, production, or
distribution of the communication was
obtained from a publicly available source. A
candidate, authorized committee, or political
party committee is materially involved in
decisions regarding:
(i)
The content of the communication;
(ii) The intended audience for the
communication;
(iii) The means or mode of the
communications;
(iv) The specific media outlet used for the
communication;
(v)
The timing or frequency of the
communication; or
(vi)
The size or prominence of a printed
communication,
or
duration
of
a
communication by means of broadcast,
cable, or satellite.

A100
(3) Substantial discussion. This paragraph,
(d)(3), is not satisfied if the material to the
creation, production, or distribution of
thecommunication was obtained from a
publicly
available
source.
The
communication is created, produced, or
distributed after one or more substantial
discussions about the communication
between the person paying for the
communication or the employees or agents
of the person paying for communication, and
the candidate who is clearly identified in the
communication,
or
the
candidate’s
authorized committee, or a political party
committee. A discussion is substantial
within the meaning of this paragraph if
information about the candidate’s political
party committee’s campaign plans, projects,
activities, or needs is conveyed to a person
paying for the communication, and that
information is material to a person paying
for the communication and that information
is material to the creation, production, or
distribution of the communication.
12.
As to subsection (2) above Appellants argued
the Yavapai County Attorney’s Office must prove
that Mr. Horne’s input, assuming there was any,
was material to the actual advertisement that aired.
13.
However, the plain language of the regulation
provides that the conduct prong is met if “a
candidate. . . is materially involved” in the decisions
being made. Being “materially involved” in the
decisions does not mean that the candidate must
prevail on every decision. Furthermore, subsection

A101
(d) above specifically provides that the conduct may
satisfy the standard “whether or not there is
agreement.”
14.
Also as to subsection (2) above, Appellants
argued that to satisfy the material involvement
standard, the Yavapai County Attorney’s Office
would have to establish that the information
material to the advertisement was not publicly
available.
15.
In contrast, the language quoted above
provides that the material involvement standard is
not satisfied if the information material to the
advertisement “was obtained from a publicly
available source.” If the information material to the
advertisement was the opinion and input would be
available from a publicly available source.
16.
As to subsection (3) above, a “substantial
discussion” requires that information about a
candidate’s plans, projects, activities, or needs must
be material to the communication. Appellants again
argued that the Yavapai County Attorney’s Office
must prove that Mr. Horne’s input, assuming there
was any, was material to the communication itself.
17.
However, the plain language of the regulation
provides that the conduct prong is met if
“information about the candidate’s . . .plans,
projects, activities, or needs is conveyed. . . and that
information is material” to the communication.
Thus, if a candidate were to convey to an
independent expenditure committee that he or she
was in need of a negative advertisement against an
opponent in a specific region and that the candidate
was planning to release an advertisement
highlighting the candidate’s positive record in that
same region on a certain day, that information could

A102
be considered material to the communication even if
the candidate had no input on the specific contents
of the final communication.
Credibility of Agent Brian Grehoski
18.
While the telephone records of Agent Mason
and Mr. Tatham support a finding that the
substantive telephone conversation on May 31,
2012, to which Agent Grehoski testified did not
occur, such a finding does not mean Agent
Grehoski’s testimony is not credible with respect to
other materials aspects of this matter.
19.
Much of Agent Grehoski’s testimony involved
a review of his analysis on the email and telephone
records in this matter to establish the timeline
based on the documentation.
20.
The Administrative Law Judge is capable of
independently reviewing those documents to
evaluate the accuracy of that timeline and the
weight to be given to the events that occurred.
Credibility of Kathleen Winn
21.
The Yavapai County Attorney’s Office
highlighted those statements in Ms. Winn’s
affidavits that contradicted her statement.
Secretary of State filings, and other records in this
matter.
22.
Ms. Winn argued that the incorrect date in
her affidavit were an error that she did not notice
until later. Ms. Winn asserted that her statement is
that she conducted the BLA activities on her own
without the assistance of anyone other than Mr.

A103
Murry were meant to address the specific
allegations that she coordinated with Mr. Horne.
23.
While there may be some inconsistencies in
the dates of activities, those are not enough to
determine Ms. Winn is not credible. And while Ms.
Winn’s explanation as to the limited nature of
coordination described in her affidavits may mean
those affidavits were less than fully accurate, it does
not render Ms. Winn’s testimony in this matter as
not credible.
Yavapai County Attorney’s Office Inferences
October 20, 2010
24.
The Yavapai County Attorney’s Office
acknowledged that it had not knowledge or evidence
to the content of the telephone conversations
between Ms. Winn and Mr. Horne. Instead, from the
circumstances surrounding the phone calls and the
emails, the Yavapai County Attorney’s Office drew
five inferences from October 20, 2010 course of
events to support a finding of coordination.
First Inference: “We” and Winn’s “several
masters”
25.
Mr. Horne called Ms. Winn at 2:19 p.m. and
they spoke for eight minutes until approximately
2:27 p.m. During their conversation, Mr. Murray
emailed Ms. Winn the unedited voice-over file of the
BLA advertisement. Just two minutes after
finishing her conversation with Mr. Horne, Ms.
Winn emailed Mr. Murray. In that email Mr. Winn
expressed her concern with the number of times
Ms. Rotellini’s name was used without any mention
of Mr. Horne. In so stating, Ms. Winn used the word

A104
“we” four times and ended with “I have several
masters.”
26.
Mr. Winn testified that the “we” used in the
email was in reference to BLA in general, Mr.
Wilkinson in particular, and Mr. Harris and his
client who had contributed a great deal of money to
BLA. Ms. Winn stated she met with Mr. Wilkinson
to go over the script earlier in the day and that he
thought the advertisement was too negative and
focused too much on Ms. Rotellini and not enough
on Mr. Horne. In so stating, Ms. Winn used the
word “we” four times and ended with “I have
several masters.”
26.
Ms. Winn testified that the “we” used in that
email was in reference to BLA in general, Mr.
Wilkinson in particular, and Mr. Harris and his
client who had contributed a great deal of money to
BLA. Ms. Winn stated she met with Mr. Wilkinson
to go over the script earlier in the day and that the
thought the advertisement was too negative and
focused too much on Ms. Rotellini and not enough
on Mr. Horne.
27.
Based on telephone records, the meeting
between Ms. Winn and Mr. Wilkinson in Mesa
ended prior to 2:00 p.m. on October 20, 2010, and
Ms. Winn had no further telephone contact with him
the rest of the day. Also, Ms. Winn last spoke to Mr.
Harris at 9:47 a.m. on October 20, 2010, before she
had the script or voice-over file.
28.
The Yavapai County Attorney’s Office
asserted that it was not possible Ms. Winn was
doing a re-write of the script with either Mr.
Wilkinson or Mr. Harris at 2:29 p.m. that afternoon
when she emailed Mr. Murray. The Yavapai County
Attorney’s Office maintained that the evidence

A105
established by preponderance of the evidence that
Mr. Horne was part of the “we” and one of her
“several masters.”
29
Appellants argued that because the email was
sound file, Ms. Winn would be unable to listen to it
while she was on the phone with Mr. Horne, so her
comments must have been a reflection of her earlier
conversation with Mr. Wilkinson. This argument
ignores the possibility that Ms. Winn opened the file
and played over the phone to Mr. Horne and that he
then gave his thoughts on the advertisement.
30.
The Administrative Law Judge concludes
that while the Yavapai County Attorney’s Office
inference is plausible, it is just as equally plausible
that Ms. Winn was referencing her earlier
conversation with Mr. Wilkinson when she said
“We do not like” and We are doing a re-write.” The
statement made that it “takes away from the
message we wanted which we want to hire the next
AG” could also be a reference to BLA’s position in
general. It is also reasonable that Ms. Winn felt she
had a certain duty to the contributors, including
both Mr. Harris and his client, and considered them
among her “several masters.”
Second Inference: “they feel” and “similar
message”
31.
At 2:37 p.m., Ms. Winn emailed Mr. Murray
that she would have the script worked out by 5:30
p.m. and included in her email the statement that
“[t]hey feel this leaves people with [Rotellini’s] name
4X.” At the same time of the email, Ms. Winn called
Mr. Horne from her office phone line and they spoke
for 11 minutes until approximately 2:48 p.m. Two
minutes later, at 2:50 p.m. Ms. Winn emailed

A106
Murray, “Okay it will be similar message just some
changes.”
32.
It was pointed out that Ms. Winn did not
speak to Mr. Wilkinson or Mr. Harris between her
2:37 p.m. email promising to have it worked out by
5:30 p.m. and her 2:50 p.m. email consenting to a
“similar message” with “some changes.” However,
during that time, Ms. Winn had a long conversation
with Mr. Horne and had little to discuss the BLA
advertisement with anyone else.
33.
The Yavapai County Attorney’s Office
maintained that these activities established by a
preponderance of the evidence that Mr. Horne was
part of the “they” and agreed to the similar message
with some charges.
34.
Appellants argued that this inference simply
calls into question Ms. Winn’s ability to make
decisions on her own to approve the message and to
make some changes without direction from to
others, specifically Mr. Horne.
35.
The Administrative Law Judge concludes
that while the Yavapai County Attorney’s Office
inference is plausible, it is equally plausible that
Ms. Winn approved the similar message with some
changes after considering the earlier input of Mr.
Wilkinson.
Third Inference: “two strong personalities
debating”
36.
After Mr. Murry emailed Ms. Winn
explaining that part of the message was to focus on
Ms. Rotellini’s negative without associating Mr.
Horne’s name with the negative messaging, Ms.
Winn replied via email at 2:59 p.m. and stated that
“I have two very strong personalities debating.”

A107
37.
The Yavapai County Attorney’s Office
asserted that the record established by a
preponderance of the evidence that one of the two
strong personalities debating was Mr. Horne.
38.
Ms. Winn testified that she had asked some of
her
co-workers
their
opinion
about
the
advertisement and that they were concerned that
the advertisement mentioned Ms. Rotellini’s name
four times when Ms. Rotellini lacked name
recognition. Ms. Winn indicated these co-workers
were the “two strong personalities debating.”
39.
The Yavapai County Attorney’s Office argued
that Ms. Winn’s explanation strained credibility.
Ms. Winn’s explanation was further diminished by
the fact that her affidavits did not mention
discussing or debating the advertisement’s contents
with anyone other than Mr. Murray and specifically
stated that she created the advertisement without
anyone’s assistance other than Mr. Murray’s
Fourth Inference: “I think I prevailed”
40.
The Administrative Law Judge concludes
that while the Yavapai County Attorney’s Office
inference is plausible, it is equally plausible that
Ms. Winn was referring to co-workers when she
referenced the “two strong personalities debating.”
41.
At 3:01 p.m. Ms. Winn attempted to call Mr.
Horne but the call did not appear in Mr. Horne’s
phone records, indicating he did not answer the call.
At 3:11 p.m., Ms.
Winn emailed Mr. Murray a revised script of the
BLA advertisement with the statement that “I think
I prevailed”
42.
The Yavapai County Attorney’s office stated
that it was logical to infer that Ms. Winn’s opinion
must have “prevailed” over someone else’s opinion.

A108
And thus, the Yavapai County Attorney’s Office
maintained that a preponderance of the evidence
established that it was Mr. Horne over who she
prevailed, given that he was one of the strong
personalities debating” just moments before.
43.
Appellants argued that Ms. Winn “prevailed”
against Mr. Wilkinson, Mr. Harris and the coworkers.
44.
Ms. Winn had not been in contact with Mr.
Wilkinson or Mr. Harris since the prior email that
“two strong personalities were debating, “so it is
unlikely she was referring to either of them as there
was no ongoing debate in which she could prevail.
The Administrative Law Judge concludes that while
the Yavapai County Attorney’s Office inference is
plausible, it is equally plausible that Ms. Winn was
referring to the co-workers that she stated were
debating with her when she stated that she believed
she had “prevailed.”
Fifth Inference: further changes
45.
At 3:13 p.m. Mr. Murray emailed Ms. Winn
that the script was still too long. At 3:14 p.m., Ms.
Winn replied with the removal of one line. At 3:15
p.m., Ms. Winn received a call from Mr. Harris that
lasted approximately three minutes. At 3:16 p.m.,
Ms. Winn received a call from Mr. Horne that lasted
four minutes, until approximately 3:25 p.m. as the
conversation ended, Ms. Winn emailed Mr. Murray
at 3:25 p.m. with a final suggested change.
46.
Because Ms. Winn had a conversation with
Mr. Horne in the moments preceding her email to
Mr. Murray, the Yavapai County Attorney’s Office
concluded that Mr. Horne and Ms. Winn were
discussing the advertisement’s script.

A109
47.
Appellants argued that because the script
was never forwarded to Mr. Horne, it was extremely
improbable that Mr. Horne could have participated
in the detailed editing that was occurring at this
point. Such an argument presupposes that Ms.
Winn did not read that script to and/or play the
sound file for Mr. Horne over the phone.
48.
The Yavapai County Attorney’s Office alleged
that the weight of the evidence showed that Mr.
Horne contributed to the changes in the script.
However, the Administrative Law Judge concludes
that it is equally plausible that Ms. Winn approved
the final edits without any input from anyone else.
October 27, 2010
49.
The Yavapai County Attorney’s Office
asserted that the October 27, 2010 email was more
than mere polling numbers and involved strategic
advice that constituted coordination.
50.
Appellants argued that because the email was
in reference to fundraising and nothing in the state
or federal statutes or regulations prohibits
coordination of contributions, this email cannot be
considered a violation.
51.
The first sentence of the first email
referenced recent polls showing Mr. Horne was
“losing ground” with independents. Following that,
Mr. Ducharme gave advice as to how to deal with
that issue. The second email Mr. Ducharme
expended on that advice.
52.
Appellants argued the campaign was over
and that there was nothing more to be done when
the email was sent. Appellants also dismissed the
strategic advice that was included in the email
because Mr. Ducharme was not a strategist with the

A110
campaign and his opinion was not important to Mr.
Horne.
53.
According to the Yavapai County Attorney’s
Office, Mr. Horne must have believed when he
forwarded the email to Ms. Winn that there was
something more that could be done in the campaign,
or he would not have forwarded the email or
suggested to Ms. Winn that she use the information
to get the additional $100,000.00 from the RSLC.
54.
However, if the only relevant information
that Ms. Winn needed was the polling numbers, Mr.
Horne could have forwarded just the first email
from Mr. Ducharme instead of the second email that
included the original message and the additional
strategic advice.
55.
In contrast, based on their interpretation of
the statutes and regulations, Appellants argued
that the information could not be considered
“substantial” or as having had a “material” effect on
the expenditures of BLA because the advertisement
had already been produced and was running on
October 27, 2010.
56.
The analysis of the applicable law above does
not necessarily require that Mr. Horne attempted to
have a material effect on the contents of the
advertisement, but only he provided information as
to his campaign needs that material to the
distribution of the communication.
57.
It is unclear from the record if Mr. Horne’s
email was material to the distribution of the
communication after October 27, 2010. Ms. Winn
had already received the additional $100,000.00
from Ms. Newman and used those funds to buy
more airtime for the advertisement. Nothing in the
record shows that the October 27, 2010 email

A111
changed the way those funds were spent. No new
ads were produced, and it does not appear that the
distribution markets changed based on the email.
58.
The evidence established the Mr. Horne had a
real estate transaction pending at the same time of
these activities. Both Ms. Winn and Mr. Horne
asserted that their communications with each other
on October 20, 2010, related only to the health of
Ms. Winn’s mother and Mr. Horne’s real estate
transaction. Both Ms. Winn and Mr. Horne flatly
denied any coordination with respect to the
advertisement.
Conclusion
59.
Ultimately, the Yavapai County Attorney’s
Office failed to establish by a preponderance of the
evidence that the telephone calls between Mr. Horne
and Ms. Winn on October 20, 2010, constituted
improper coordination of expenditure in violation of
Title 16, Chapter 6 of the Arizona Revised Statutes.
While there are inferences that can be made, there
are also reasonable explanations that the
communications related to Mr. Horne’s real estate
transaction that was pending at the same time.
60.
The Yavapai County Attorney’s Office also
failed to establish by a preponderance of the
evidence that the October 27, 2010 email from Mr.
Horne to Ms. Winn constituted improper
coordination in violation of Title 16, Chapter 6 of the
Arizona Revised Statutes. No evidence was
presented to show that the email had a material
effect on BLA’s expenditure.

A112
RECOMMENDED ORDER
Based on the above, the October 17, 2013 Order
Requiring Compliance is vacated.
Done this day, April 14, 2014.
/s/Tammy L. Eigenheer
Administrative Law Judge
Transmitted electronically to:
Benjamin Kreutzberg, Deputy Attorney
Yavapai County Attorney’s Office
__________________________________
Footnotes:
¹YCA Exhibit 3 at, r1
²YCA Exhibit 3 at I,I
³YCA Exhibit 3 at, r5
⁴YCA Exhibit 5. The Report also includes an $80.00
contribution from Ms. Winn on November 8, 2010
⁵Agent Mason was not called as a witness by either
party.
⁶It is noted that throughout the proceedings,
Appellants referenced the unreliability of the
telephone and email records based on the lack of
metadate. This argument will be addressed in the
Conclusions of Law, infra
⁷YCA Exhibit 7 at 22.
⁸YCA Exhibit 6 at 19 All quoted emails appear as
sent. Any errors were in the original.
⁹YCA Exhibit 7 at 22 and YCA Exhibit 31.
¹⁰YCA Exhibit 7 at 22 and YCA Exhibit 10 at 46.
¹¹YCA Exhibit 8 at 41-42.
¹²YCA Exhibit 8 at 41

A113
¹³Id
¹⁴YCA Exhibit 9 at 43
¹⁵YCA Exhibit 10 at 46
¹⁶YCA Exhibit 8 at 41.
¹⁷YCA Exhibit 9 at 43
18 Id
¹⁹YCA Exhibit 8 at 40-41.
²⁰YCA Exhibit 7 at 23.
²¹YCA Exhibit 6 at 18-19
²²YCA Exhibit 6 at 18
²³Id
²⁴YCA Exhibit 7 at 23
²⁵YCA Exhibit 6 at 18
²⁶YCA Exhibit 7 at 23 and YCA Exhibit 10 at 46.
²⁷YCA Exhibit 6 at 18
²⁸Horne-Winn Exhibit 23
²⁹YCA Exhibit 15 at 121-122
³⁰YCA Exhibit 15 at 121
³¹ Id
³²YCA Exhibit 15 at 120-121
³³YCA Exhibit 15 at 120
³⁴Id
³⁵Id
³⁶Id
³⁷Court Reporter’s Transcript (Transcript) at 59:2-9
³⁸Transcript at 63:11-64:3
³⁹Transcript at 138:11-25
⁴⁰Transcript at 136:1-19
⁴¹Transcript at 137:24-138:4
⁴²Transcript at 138:5-7
⁴³Transcript at 138:7-10
⁴⁴YCA /exhibit 39 and Horne-Winn Exhibit 27.
⁴⁵Transcript at 455:12-18
⁴⁶Transcript at 463:18-23
⁴⁷Transcript at 461:4-6

A114
⁴⁸Transcript at 530:1-531:19
⁴⁹Transcript at 531:22-23; 612:6-21
⁵⁰Transcript at 531:23-532:3; 614:19-23
⁵¹Transcript at 532:4-9; 616:3-5
⁵²YCA Exhibit 32 at 549; Transcript at 616:6-617:1
⁵³YCA Exhibit 32 at 549; Transcript at 621:19-622:3
⁵⁴Transcript at 622:1-3
⁵⁵Transcript at 624:5-14
⁵⁶Transcript at 625:19-626:23; see also YCA Exhibit
32 at 549
⁵⁷YCA Exhibit 5 at 13; Transcript at 537:6-12.
⁵⁸Transcript at 538:20-539:6
⁵⁹Transcript at 540:5-9.
⁶⁰Transcript at 540:13-18
⁶¹ Mr. Wilkinson’s phone records show he was in
Scottsdale at 10:40 p.m. and was in Chandler at
1:58 p.m. Mr. Wilkinson made or received calls from
Mesa at 12:19 p.m., 12:21 p.m., and 12:58 YCA
Exhibit 31. Ms. Winn’s phone records show she was
in Phoenix at 12:35 p.m. and was in Tempe at 3:41
p.m. Ms. Winn first made a call from Mesa at 12:47
p.m. and last received a call while in Mesa at 3:37
p.m. YCA Exhibit 7. Therefore, Mr. Wilkinson and
Ms. Winn could have met in Mesa at some point
shortly after 12:35 p.m. and shortly before 1:58 p.m.
⁶²Transcript at 565: 10-566:7
⁶³Transcript at 590:20-591:3
⁶⁴Transcript at 552: 9-24
⁶⁵Transcript at 653: 15-20
⁶⁶Transcript at 526: 21-24, 528: 11-21
⁶⁷Transcript at 572: 21-574;4
⁶⁸Transcript at 569: 2-570:4
⁶⁹Transcript at 569: 15-18
⁷⁰Transcript at 583: 15-20
⁷¹Transcript at 576: 5-9

A115
⁷²Transcript at 584: 5-8
⁷³Transcript at 670: 9-25
⁷⁴YCA Exhibit 4 at 1[2].
⁷⁵YCA Exhibit 3 at 1[6].
⁷⁶YCA Exhibit 11 at 1[4].
⁷⁷YCA Exhibit 29 at 395 and 404.
⁷⁸Horne-Winn Exhibit 16 at 1
⁷⁹Transcript at 685:20-23
⁸⁰Transcript at 696: 16-24.
⁸¹Transcript at 687: 11-16
⁸²Transcript at 688: 1-20
⁸³YCA Exhibit 33 at 620.
⁸⁴Horne-Winn Exhibit 6, Transcript at 138:11-25
⁸⁵Transcript at 699: 1-15
⁸⁶Transcript at 700: 3-4
⁸⁷Transcript at 702: 17-25, Horne-Winn Exhibit 10
⁸⁸Transcript at 703: 11-704: 16
⁸⁹Transcript at 705: 24-706:2.
⁹⁰Transcript at 401: 18-19
⁹¹Transcript at 375:16-376:8
⁹²Transcript at 392:23-25
⁹³YCA Exhibit 6 at 19
⁹⁴YCA Exhibit 23
⁹⁵Horne Rebuttal p. 9.
⁹⁶A.R.S. § 16-924(A) provision relevant part:
The attorney general, county attorney or
city or town attorney, as appropriate may
serve on the person an order requiring
compliance with that provision. The order
shall state with reasonable particularity the
nature of the violation and shall require
compliance within twenty days from the
date of issuance of the order. The alleged
violator has twenty days from the date of
issuance of the order. The alleged violator

A116
has twenty days from the date of issuance of
the order to request a hearing pursuant to
title 41, chapter 6.
⁹⁷See A.A.C R2-19-119
⁹⁸A.R.S § 16-901(5)(b)(vi)
⁹⁹A.R.S. § 16-917(C)
¹⁰⁰A.R.S. § 16-905
¹⁰¹A.R.S § 16-919(A)
¹⁰²A.R.S § 16-913, A.R.S. § 16-915
¹⁰³See Transcript at 215:3-8
¹⁰⁴YCA Exhibit 14 at 111

A117
SHEILA SULLIVAN POLK, SBN 007514
YAVAPAI COUNTY ATTORNEY
Jack H. Fields, SBN 012470
Benjamin D. Kruetzberg, SBN 027984
Deputy County Attorneys
255 East Gurley Street
Prescott, Arizona 86301
(928) 771-3344
YCAO@yavapai.us
OFFICE OF THE YAVAPAI COUNTY
ATTORNEY CAMPAIGN FINANCE
PROCEEDING

IN THE MATTER OF
TOM
HORNE,
individually;
Tom
Horne for Attorney
General
Committee
(SOS Filer ID 2010
00003); KATHLEEN
WINN,
individually;
Business Leaders for
Arizona (SOS Filer ID
2010 00375),

Order Requiring
Compliance

On June 27, 2013, the Arizona Secretary of
State issued a letter
to the Arizona Attorney
General’s Office stating that reasonable cause exists
to believe that Kathleen Winn (“Winn”), Business
Leaders for Arizona (“BLA”), Tom Horne (“Horne”),
and Tome Horne for Attorney General (“the Horne

A118
Campaign”) violated campaign finance laws under
A.R.S. § 16-924(A). Also, on June 27, 2013, the
Arizona Attorney General’s Office, through Solicitor
General Robert Ellman, appointed Yavapai County
Attorney Shiela Polk as a Special Arizona Attorney
General to fulfill the Attorney General’s role as
described in A.R.S 16-924. This Order Requiring
Compliance (“Order”) is issued to that authority.
Tom Horne ran for and was elected to the
office of Arizona Attorney General in 2010. BLA,
through its chair Kathleen Winn, was formed as an
independent expenditure committee. However, as
explained in this order, BLA and Winn coordinated
their activities with Horne and the Horne Campaign
to advocate the defeat of Horne’s opponent in the
2010 general election, Felicia Rotellini. The
coordination resulted in violations of Arizona
Campaign finance law, A.R.S. § 16-901 et seq.
I.

Arizona Campaign Finance Law

A.R.S. § 16-901(14)
“independent expenditure”:

defines

the

term

14. Independent expenditure” means
an experience by a person or political
committee, other than a candidate’s
complain
committee,
that
expressly
advocates the election or defeat of a clearly
identified candidate, that is made without
cooperation or consultation with any
candidate or committee or agent of the
candidate and that is not made in concert
with or at the request or suggestion of a
candidate, or any committee or agent of the

A119
candidate. Independent expenditure includes
an expenditure that is subject to the
requirements of § 16-917, which requires a
copy of campaign literature or advertisement
to be sent to a candidate named or otherwise
referred
to
in
the
literature
or
advertisement. An expenditure is not an
independent expenditure if any of the
following applies:
(a) Any officer, member, employee or
agent of the political committee making the
expenditure is also an officer, member,
employee or agent of the committee whose
election or whose opponent’s defeat is being
advocated by the expenditure is also an
officer, member, employee or agent of the
committee of the candidate whose election or
whose opponent’s defeat is being advocated
by the expenditure or an agent of the
candidate
whose
election
or
whose
opponent’s defeat is being advocated by the
expenditure.
(b)
There is any arrangement,
coordination, or direction with respect to the
expenditure between the candidate of the
candidate’s agent and the persona making
the expenditure, including any officer,
director,
(c) In the same election the person
making the expenditure, including any
officer, director, employee, or agent of that
person, is or
(i) Authorized to raise or expend
monies on behalf of the candidate or the
candidate’s authorized committees.

A120
(ii)
Receiving
[a]n
form
of
compensation or reimbursement from the
candidate, the candidate’s committees, or
the candidate’s agent.
(d) The expenditure is based on information
about the candidate’s plans, projects or
needs, or those of his campaign committee,
provided to the expending person by the
candidate or by the candidate’s campaign
committee with a view toward having the
expenditure made.
Independent expenditures do not count as
contributions a candidate’s coma. A.R.S. § 16901(5)(b)(vi). However, “[a]n expenditure by a
political committee, corporation, limited liability
company, labor organization of a person that does
not meet the definition of an independent
expenditure is an in-kind contribution to the
candidate and corresponding expenditure by the
candidate unless otherwise exempted” A.R.S. § 16917 (C) (emphasis added).
Candidates and Candidate Committees are
subject to contribution limits which vary depending
on the nature of the election and the type of donor.
A.R.S. §16-905l see Exhibit 1, 2009-2010
Contribution Limits Table. Candidate and their
campaigns cannot accept contributions from
corporations or limited liability companies, A.R.S §
16-919(A). All political committees, both candidate
committees and independent committees, must
periodically file reports list all contributions
received. A.R.S. §§ 16-913, 16-915.
In sum, if there is any “arrangement,
coordination or direction” between a persona or

A121
political committee making an expenditure that
expressly advocates the election or defeat of a clearly
identified candidate and that candidate or the
candidate’s campaign, those expenditures are
deemed in-kind contributions to the candidate and
expenditures of the candidate. Several consequences
may follow as a result of the deeming: (1) The
deemed in-kind contributions may exceed the
candidate’s contribution limits; (2) The deemed inkind contributions may violate the law that prohibits
the candidate from accepting any contributions from
corporate contributors; (3) If the deemed in-kind
contributions are not reported by the candidate
committee, the reports filed by the candidate
committee and the expending “independent”
committee would inaccurately state the nature and
origins of the contributions.
II.

The 2010 Attorney General Election
A. Background

Kathleen Winn formed BLA on December 23,
2009. Exhibit 2 BLA Statement of Organization.
According to Winn, her original intent was to oppose
Andrew Thomas in the Attorney General primary
election. Exhibit 3, Kathleen Winn Affidavit dated
March 30, 2012 at ¶ 1. According to Winn, BLA was
mildly active during the first two months of 2010,
and then remained “dormant” until activated again
in October of 2010, Exhibit 3, Kathleen Winn
Affidavit dated March 30, 2012 at ¶ 1.
According to her affidavit, Winn was involved
with the Horne campaign from early in 2010 until a
few weeks after the primary election. Exhibit 3,

A122
Kathleen Winn Affidavit dated March 30, 2012 at ¶
2. Her duties included coordinating the Horne
campaign in all counties other than Maricopa
County. Exhibit 3, Kathleen Winn Affidavit dated
March 30, 2012 at ¶ 5. Winn states that she
withdrew from the Horne campaign on October 17,
2010, and that the first contribution to BLA was
made on October 20, 2010. Exhibit 4, Kathleen Winn
Affidavit dated May 25, 2012 at ¶ 2.
According to BLA’s Post-Election report filed
by Winn with the Secretary of State, beginning
approximately two weeks before the 2010 general
election, BLA received five hundred thirteen
thousand four hundred twenty dollars ($513,420.00)
in contributions from seven individuals three
entities. Exhibit 5, BLA Amended 2010 Post-General
Election Report. BLA used the contributions to pay
Lincoln Strategy Group (“LSG”) for the production
and airing of a television advertisement to expressly
advocate the defeat of Felicia Rotellini, Horne’s
opponent in the 2010 Attorney General Election.
Exhibit 3, Kathleen Winn Affidavit dated March 30,
2012 at ¶ 6 and Exhibit 5, BLA Amended 22010
Post-General Election Report. Winn’s principal
contact at LSG was Brian Murray (“Murray”).
Winn’s affidavit asserts that that the anti-Rotellini
and advertisement was her idea alone, that the
advertisement was produced by her alone, that she
took no instruction from Horne or his campaign staff
or advisors, and that there was absolutely no
coordination between Horne/Horne’s campaign, and
Winn/BLA. Exhibit 3, Kathleen Winn Affidavit dated
March 30, 2012 at ¶ 6.

A123
B. Events of October 20, 2010
On October 20, 2010, Murray and Winn
engaged in several key e-mail exchanges regarding
the content and progress of the anti-Rotellini
advertisement that BLA had commissioned from
LSG. Interspersed with the e-mail exchanges
between Murray and Winn are telephone calls
between Winn and Horne. The Murray/Winn e-mails
and the Winn/Horne phone calls, and the
relationships between them, are critical because
they document the development and refinement of
the core political message of BLA’s anti-Rotellini
advertisement. That advertisement was BLA’s entire
contribution to the 2010 election’s political
landscape.
At 10:21, Murray sent Winn an e-mail
suggesting that the advertisement “be used to drive
[Rotellini] negatives.” Exhibit 6, E-mail Chain A.
Between 10:21 a.m. and the next e-mail at 1:42 p.m.,
the phone records show five calls between Horne and
Winn and five calls between Winn and Murray.
Exhibit 7, Winn Phone Records.
At 1:42 p.m., Winn e-mailed Murray and
asked if sound was available for the anti-Rotellini
advertisement. Exhibit 6, E-mail Chain A. At 1:46
p.m., Murray responded to Winn stating that the
commercial’s sound would not be available for few
hours. Exhibit 6, E-mail Chain A.
At 2:19 p.m., Horne called Winn and they
spoke for 8 minutes,1 until 2:27 p.m. Exhibit 7, Winn
Phone Records. While Horne and Winn were
The telephone records round call lengths to the nearest
minute.

1

A124
speaking, at 2:24 p.m. Murray e-mailed Winn with
the unedited voice-over file for the anti-Rotellini
advertisement. Exhibit 8, E-mail Chain B. At 2:29
p.m., shortly after she had finished talking to Horne,
Winn e-mailed Murray as follows:
We do not like that her name is mentioned 4
times and no mention for Horne. We are
doing a re-write currently and will get back
to you. Too negative and to protect and
defend [sic] Arizona against the federal
government. I will get back to you shortly
Brian sorry for the confusion except I have
several masters.
Exhibit 8, E-mail Chain B. It would have taken
Winn approximately 1-2 minutes to create this email, meaning takes away from the message few
wanted which we want to hire the next AG that she
must have started it either while she was taking to
Horne or immediately thereafter. In addition, Winn
spoke to no one else on her cell phone between the
receipt of the 2:24 p.m. e-mail from Murray and her
2:29 p.m. response. Exhibit 7, Winn Phone Records.
At 2:30 p.m. Murray responded stating that
he would stop production on the anti-Rotellini
advertisement. Exhibit 8, E-mail Chain B. Winn
replied to Murray at 2:37 p.m.:
Yes, I will have it worked out by 5:30. They
feel this leaves people with her name 4X and
with no mention of Tom [sic] It is like saying
don’t think about a pink elephant.. so [sic]
you think about the pink elephant.

A125
Exhibit 9, E-mail Chain C. Also, at 2:37 p.m. Winn
initiated a telephone call to Horne, and they spoke
for eleven minutes until approximately 2:48 p.m.
Exhibit 10, Horne Phone Records.
At 2:50 p.m., just after she finished talking to
Horne, Winn e-mailed Murray: “Okay it will be
similar message just some changes.” Exhibit 8, Email Chain B. At 2:53 p.m. Murray responded to
Winn’s e-mail that mentioned the “pink elephant”
with the following e-mail:
It is kind of the point, driving her negatives.
We don’t want Tom’s name associated with
the negative messaging. From a timing
standpoint to be on the air Monday we will
have to produce and make all edits tomorrow
so I can traffic it on Friday.
Exhibit 9, E-mail Chain C.
At 2:59 p.m., Winn responded to Murray:
The concern is you can get out her negatives
without saying her name 4 times. I have two
very strong personalities debating this
moment she lacks name recognition we don’t
want to help her in that regard is the
argument.
Exhibit 9, E-mail Chain C.
At 3:00 p.m., Winn and Murray exchanged
two e-mails regarding BLA’s payment to LSG for the
anti-Rotellini advertisement. Exhibit 8, E-mail
Chain B.

A126
At 3:01 p.m. Winn called Horne and the call
lasted for approximately one minute. Exhibit 7,
Winn Phone Records. At 3:11 p.m. Winn sent
Murray an e-mail with a revised script of the antiRotellini advertisement, and the statement: “I think
I prevailed no mention of Tom thanks for what you
said. I believe this times out let me know.” Exhibit 6,
E-mail Chain A. At 3:13 p.m., Murray told Winn that
the script was too long. Exhibit 6, E-mail Chain A.
At 3:14 p.m., Winn suggested removing one
line, but at 3:16 p.m. Murray told her that the
commercial was still too long. Exhibit 6, E-mail
Chain A. At 3:21 p.m., Horne called Winn, and they
spoke for four minutes. Exhibit 7, Winn Phone
Records. As they were finishing that conversation, at
3:25 p.m., Winn e-mailed Murray:
Change to Arizona needs the RIGHT
attorney general taking money from labor
unions and special interest groups.
Exhibit 6, E-mail Chain A.
C. Analysis of the October 20, 2010 Events.
On October 20, 2010, Winn and Murray
worked for several hours by phone and e-mail to
finalize the “voice-over” script of the BLA
advertisement that would support Horne and oppose
Rotellini. The main discussion between Winn and
Murray concerned the political message Winn/BLA
wished
to
convey
in
the
anti-Rotellini
advertisements. The records show that in the course
of this work whenever a decision was made to modify
or approve the “voice-over” script, Winn was almost

A127
always either on the phone with Horne, or spoke
with Horne prior to conveying final instruction to
Murray. The content of the e-mails between Winn
and Murray, coupled with the timing of those emails and the phone calls between Winn and Horne
provide convincing proof that Horne and Winn
coordinated on the development of the political
message to be conveyed by the BLA anti-Rotellini
advertisement.
1.

Content and timing of key phone calls
and e-mails

At 2:19 p.m., Winn began an 8-minute phone
conversation with Horne. Exhibit 7, Winn Phone
Records. At 2:24 p.m., while Winn was on the phone
to Horne, Murray e-mailed the unedited version of
the voice-over script for the advertisement to Winn.
Exhibit 9, E-mail Chain C.
At 2:29 p.m., shortly after ending her
conversation with Horne, Winn e-mailed Murray
with a critique of the script, stating that “We do not
like that her name is mentioned 4 times and not
mention for Horne.” Exhibit 8, E-mail Chain B
(emphasis added). Indeed, Winn used the plural
pronoun “we” three additional time in that e-mail. –
“We are doing a rewrite…”, “Too negative and takes
away from the message we wanted which we want. .
.”, Exhibit 8, E-mail Chain B. Winn clearly knew the
difference between “we” and “I” as she finished the email with the sentence: “I will get back to you
shortly Brian sorry for the confusion except I have
several masters. Exhibit 8, E-mail Chain B
(emphasis added)

A128
This e-mail is telling as it contradicts Winn’s
assertion in her affidavits that she “raised every
dollar for this campaign [herself], produced the ad,
and bought the airtime without the assistance of
anyone other that Mr. Murray.” Exhibit 11, Winn
Affidavit dated May 30, 2012 at ¶ 6. Winn was on
the phone with Horne when she received the draft
script. She then told Murray that “we” have a
problem with the script. Given the content of the
2:29 p.m. e-mail, the fact that the e-mail was sent
within a minute or two of the end of the phone
conversation between Winn and Horne and that
nothing shows that Winn spoke with any other
person during the time between the end of her call
with Horne and the 2:29 p.m. e-mail, it is reasonable
to conclude that “we” meant Winn and Horne. In
other words, Winn was telling Murray that Winn
and Horne had a problem with the script.
Winn also made a point to declare to Murray
she had “several masters,” again refuting her
assertion that she was acting independently.
Because she was finalizing advertisements
advocating the defeat of Horne’s opponent and was
in communication at that time with no persons who
could have contributed to the advertisement’s
contents other than Horne and Murray, the
reasonable conclusion is that at least one of Winn’s
“masters” was Horne.
The focus of the e-mails then shifted to a
debate about how the anti-Rotellini advertisement
should be changed. In a 2:37 p.m. e-mail to Murray,
Winn explained the objection “they” have a script: “I
will have it worked out by 5:30. They feel this leaves
people with their 4 X and with no intention of Tom.
It is like saying don’t think about a pink elephant.

A129
so, you think about the pink elephant.” Exhibit 9, Email Chain C. Again, the use of the plural pronoun
“they” indicates that Winn was not working alone on
the script changes, contrary to her sworn assertion.
At the same time, she sent the e-mail, 2:37
p.m., Winn called Horne. Exhibit 7, Winn Phone
Records and Exhibit 9, E-mail Chain C. This phone
call with Horne lasted 11 minutes, and ended a t
approximately 2:48 p.m. Very shortly after Winn’s
phone call with Horne ended, at 2:50 p.m., Winn emailed Murray to tell him that the revised script
would have “a similar message” but incorporate
some changes. Exhibit 8, E-mail Chain B. Clearly,
between 2:37 p.m. and 2:50 p.m., while Winn and
Horne spoke, changes to the script were being
debated.
Winn confirmed that changes were being
debated in here 2:59 p.m. e-mail to Murray where
Winn states, “I have two very strong
personalities debating this moment she lacks
name recognition we don’t want to help her in the
regard is the argument.” Exhibit 9, E-mail Chain C
(emphasis added). Again, the statement that “two
very strong personalities” were discussing the
content of the anti-Rotellini advertisement refutes
Winn’s sworn assertions that she acted alone in
developing it. The records show that while Winn and
Murray were working on the advertisement, Winn
was in contact with no person who could have
contributed to the advertisement’s content other
than Horne. Indeed, Winn called Horne at 3:01 p.m.,
shortly after the 2:59 e-mail was sent. It is
reasonable to conclude that Winn and Horne were
debating the content of the anti-Rotellini
advertisement.

A130
At 3:11 p.m., Winn e-mailed Murray with
modified script. Exhibit 6, E-mail Chain A. Winn
made a point of telling Murray that she “prevailed” –
again confirming Winn was engaged in a debate with
someone else about the content of the script, logically
one of her “several masters,” and that she prevailed
in the debate. This is also contrary to Winn’s sworn
assertions that she acted alone and dispels the
notion that Winn was in any way the only person in
control of the advertisement production process. And
again, the only person Winn had contact with either
by -e-mail or her cell phone during this time who
could have contributed to the advertisement was
Horne. Exhibit 7, Winn Phone records. The
reasonable conclusion is that the debate about the
content of the anti-Rotellini advertisement that LSG
was preparing for BLA was between Winn and
Horne.
It further appears that Horne participated in
the final editing of the script to make short enough
to air. At 3:13 p.m., Murray e-mailed Winn telling
her the script was too long. Exhibit 6, E-mail Chain
A. At 3:14 p.m., Winn suggested removing one line,
but at 3:16 p.m. Murray told her that the script was
still too long. Exhibit 6, E-mail Chain A. This e-mail
appears to have prompted a call from Winn to Horne
at 3:21 p.m. lasting for four minutes. Exhibit 7,
Winn Phone Records. Near the end of that
conversation, 3:25 p.m., Winn e-mailed Murray:
Change to Arizona needs the RIGHT
attorney general taking money from labor
unions and special interest groups
Exhibit 6, E-mail Chain A.

A131
2. Conclusions and inferences from the events
of October 20, 2010
Two related conclusions flow clearly from the
above chain of events: (1) Winn and Horne
coordinated their efforts to produce the political
message of the anti-Rotellini advertisement, and (2)
Winn’s sworn statements that she alone was
responsible for the idea, design and production of the
anti-Rotellini advertisement are false.
Under A.R.S. § 16-901(14), an independent
expenditure must be made “without cooperation or
consultation with any candidate or committee or
agent of the candidate,” and must also not be made
“in concert with or at the request or suggestion of a
candidate, or any committee or agent of the
candidate,” Further, an expenditure is not
independent if “[t]here is any arrangement,
coordination or direction with respect to the
expenditure between the candidate or the
candidate’s agent and the person making the
expenditure. . . “or if “[t]he expenditure is made on
information about the candidate’s plans, projects, or
needs, or those of his campaign committee, provided
to the expending person by the candidate’s campaign
committee with a view toward having the
expenditure made.” Id.
From 2:19 p.m. to 3:30 p.m. in October, the
voice-over script for the anti-Rotellini advertisement
was vetted and approved. The content of that script
dictated BLA’s entire political message during the
2010 election cycle.
As noted above, during her e-mail exchanges
with Murray, Winn admitted that she had “several
masters,” that “we” have problems, and that “they”

A132
do not like the script. Winn almost always consulted
with Horne prior to instructing Murray. When a
decision was finally made, Winn stated she
“prevailed.” The notion that she “prevailed” means
that she had to persuade someone to her point of
view, which in turn means someone else was making
final decisions regarding the script.
The only other person Winn spoke with during
that time who could have contributed to the
advertisement with Horne. No other conclusion can
be drawn other than that Horne himself was the
final authority approving the political content of the
anti-Rotellini advertisement purchased by BLA.
Winn’s primary contribution was to convey Horne’s
decisions to Murray. The records reflect that Winn
and Horne coordinated their efforts on the antiRotellini advertisement because Horne was in fact in
control of the content of BLA’s anti-Rotellini
advertisement. Thus, BLA’s expenditures on the
anti-Rotellini advertisement were not independent
expenditures under A.R.S § 16-901(14) and are
deemed an inkind contribution to Horne’s campaign
under A.R.S § 16-917 (C).2
2

The conduct also satisfies the "conduct prong" of the
Federal Elections Commission's (FEC's) guidelines to the
extent that they might apply to Arizona campaign finance
law. That test classifies expenditures as coordinated I) if the
communications are made at the request or suggestion of
the candidate, 2) if the candidate is materially involved in
decisions regarding the content, audience, means of
communication or other specific characteristics of the
communication, 3) if the communication is made after one or
more substantial discussions between the expender and the
candidate, 4) if the expender and the candidate use a
common vendor, or 5) if a person who has previously been an
employee or independent contractor of the candidate's

A133
The same facts lead to the conclusion that
Winn’s sworn assertions what she alone was
responsible for the idea, design and production of the
anti-Rotellini advertisement are patently false.3
Winn’s e-mails with Murray clearly state that Winn
was looking to others to make decisions when
finalizing the core political message of the antiRotellini advertisement, In fact, the October 20,
2010 emails make it clear that the origin of the
political message to be conveyed by the anti-Rotellini
advertisement was not Winn but was in fact Horne.
Winn did not just consult with Horne regarding the
development and production of the advertisement;
she followed his direction for virtually it whole
content.
Most of Winn’s instructions to Murray
occurred wither while she was on the phone with
Horne or shortly after talking to him. Indeed, Winn
admitted to Murray that she had “several masters,”
that “two strong personalities were debating,” and
that when a decision was made that he “prevailed.”
The e-mails show that Winn not only acted in
coordination with Horne, she was not even in charge
campaign committee or party committee within 120 days of
Exhibit
14,
Coordinated
the
expenditure.
See
Communications, and Independent Expenditures. The FEC
test also includes the "payment prong" and the "content
prong," which are unambiguously satisfied in this situation.
Accordingly, the expenditures would be considered
coordinated under the FEC standard as well under the plain
language of the Arizona statutes.
3 Winn has also stated that she "raised every dollar for [the]
campaign herself." Exhibit 11, Winn Affidavit dated May 30,
2012 at ¶ 4. However, Brian Murray raised the $350,000 from
RSLC. Exhibit 12, Brian Murray Interview dated April 2, 2012
at 16-18 and Exhibit 13, E-mail Chain D.

A134
of the production decisions for BLA’s anti-Rotellini
advertisement; Horne was.
D. Events of October 27, 2010
The coordination on October 27, 2010 is well
documented through a single e-mail chain. See
Exhibit 15, E-mail Chain E. At 1:36 p.m.,4 political
pollster Ryan Ducharme (“Ducharme”) e-mailed
Horne the following message:
Recent polls show you losing ground
amongst independents to Rotellini and her
starting to pick up more Reps than you are
picking up Dems. Bleeding needs to be
stopped. Allegations and smears against you
by the DC group starting to peel away votes.
They need to be addressed as desperate lastminute attacks with no basis in truth.
Exhibit 15, E-mail Chain E, Ducharme then sent
another e-mail to Horne and Kim Owens, a Horne
campaigner:
I would link attacks directly to Rotellini as
someone behind in the polls trying to hide
from her record (SB1070, ties to unions
calling for AZ boycott, etc.) The truth, once
known, will undermine Rotellini’s credibility
and call in to question her character – a very
important quality for Inds.
The initial e-mail carries a time stamp of “20:36:09,” which
appears to be the time in Greenwich Mean Time (GMT). All
times are converted to Mountain Standard Time (MST) for
consistency.

4

A135
You are much stronger in rural AZ
-Ryan
Exhibit 15, E-mail Chain E.
After he received those two e-mails, Horne
forwarded the entire chain to Casey Phillips, a
Republican State Leadership Committee (“RSLC”)
regional director. Exhibit 15, E-mail Chain E. Then,
at 2:02 p.m., Horne attempted to forward the entire
chain to Winn, with the following message: “I
forwarded this to casey. [sic] Maybe with this we
can. Try again for the hundred k.5” Exhibit 15, Email Chain E. However, at 2:05 p.m. Horne received
a notice that the attempt to forward the email to
Winn had failed. Exhibit 15, Email Chain E. At 2:10,
Horne successfully re-forwarded the entire email
chain to Winn. Exhibit 15, Email Chain E.
At 2:31 p.m., Winn forwarded the chain to
Murray, with the note: “This just came into me read
below.” Exhibit 15, Email Chain E. At 2:55 p.m.,
Murray sent the e-mail chain to his attorney:
Steve,
I wanted to make you aware of an incident
that occurred with one of our clients.
Kathleen is running an IE committee call
Business Leaders for Arizona which is in
The “hundred k” likely refers to an attempt to request
additional money from RSLC. That group had originally
indicated or suggested that it would provide BLA with
$450,000, but later revised its contribution to $350,000. See
Exhibit 12, Brian Murray Interview dated April 2, 2012 at 1718 and Exhibit 16, Email Chain F.

5

A136
support of Tom Horne for AG. I was hire [sic]
to do the TV component. I warned her on
numerous occasions that she needed to cease
contact with the candidate and any agents of
the campaign. I then received the following
email. I then called her and informed her
again that she should not have any contact.
She assured me that this was unsolicited and
had not in several days.
As our firm’s attorney I wanted to make you
aware of this situation should something
arise later.
Thanks,
B
Exhibit 15, Email Chain E. Later on, October 27,
2010, Winn spoke three times to Horne, with each
call either immediately preceding or immediately
following a discussion between Winn and Murray.
Exhibit 7, Winn Phone Records.
E. Analysis of October 27, 2010 events
On October 27, 2010, Horne received
information polling data from a Republican pollster
telling him that he was losing support because of
pro-Rotellini advertisements being financed by an
out of state independent committee. The pollster
recommended to Horne that he need to address the
pro-Rotellini advertisements to “stop the bleeding,”
and suggested to strategy to do so to Horne. Horne
forwarded the polling information and strategic
advice to Winn with a suggestion that Winn and
BLA seek an additional one hundred thousand

A137
($100,000), presumably from RSLC. Winn forwarded
that information to Murray, who was Winn’s
financial contact with RSLC. Murray correctly
recognized that the email was a violation of Arizona
campaign finance law and warned his attorney about
the email.
The October 27, 2010, email from Horne to
Winn to Murray was a communication from a
candidate to supposedly independent political
committee. In that communication, Horne shared
information about the need of his campaign to rebut
pro-Rotellini advertisements. He also asked the
supposedly independent political committee to fulfill
that need by doing what he could not himself do:
raise $100,000 from a single unrelated donor and
spend it on anti-Rotellini advertisements targeting
Rotellini’s ties to unions and her record on Arizona
immigration policy.
When Horne sent strategic information to a
supposedly independent campaign, he intentionally
and blatantly broke the barrier that was supposed to
exit between his campaign and BLA. The breach is
so clear that Horne must have recognized it to be
improper. Even though the subsequent money raised
by BLA was not from RSLC, it is clear that BLA’s
expenditures were based on the needs of the Horne
campaign.
It is also notable that Winn made false
statements in her sworn affidavits concerning these
events as well. In her second affidavit, Winn states,
“I did not take Mr. Horne’s email as anything more
than a suggestion, a suggestion I rejected and did
not act upon.” Exhibit 11, Kathleen Winn Affidavit
dated May 30, 2012 at ¶ 4. This is a false statement.

A138
The email string sent by Winn to Murray
contained information regarding Horne’s slipping
poll numbers and thus his need to counterattack, a
statement of strategy describing the content of such
a counterattack, and a request from Horne that
Winn raise another $100,000 for the counterattack.
By forwarding this information to Murray, the man
who had raised $350,000 for BLA from RSLC just a
week previously, Winn was obviously asking Murray
to try to raise another $100,000 from RSLC so BLA
could carry out Horne’s request. “Not acting” by
Winn would have been not forwarding the email to
Murray. Clearly Winn did try to carry out Horne’s
request, and her sworn statement that she did not
act on is request is false.
F. Findings and Conclusions
As explained throughout Section II, Winn
coordinated with Horne and his campaign. Horne
was substantially involved with the creation of the
BLA television commercial, which expressly
advocated Rotellini’s defeat. Accordingly, it was
made “in concert with” him. A.R.S § 16-901(14).
There was also “arrangement, coordination or
direction with respect to the expenditure between
the candidate of the candidate’s agent and the
person making the expenditure. . . . “ A.R.S § 16901(14)(b) The expenditure on the commercial was
“made on information about the candidate’s plans,
projects or needs, or those of his campaign
committee: and that the information was “provided
to the expended person by the candidate” or his
campaign personnel A.R.S. § 16-901 (d)

A139
As a result of that coordination , all of BLA’s
expenditures must be deemed in-kind contributions
to the Horne Campaign. A.R.S. § 16-917(C). That
coordination resulted in Horne’s violations campaign
finance laws.
Any contributions to BLA which exceed the
contribution limits for the Horne campaign are
unlawful. A.R.S. § 16-905. In 2010, the contribution
limit for both individuals and political committees
was $840.00. A.R.S §§ 16-905(B), 16-905(C), 16905(H), 16-941(B); see Exhibit 1, 2009-2010
Contribution Limits Table. Table 1, below
summarizes the amount by which each individual
contribution and the RSLC contribution exceeded
the relevant limits.
Table 1:
Limits
Contrib
uting
Person
or
Entity
Charles
Diaz
Richard
Newma
n6
Ronald
Lebowit

Contributions in Excess of Contribution
Date if
BLA
Contribu
tion

Amount
Contribu
ted
To BLA

Amount
Contribut
ed
To Horne

10/20/20
10
10/21/20
10 &
10/28/20
10
10/22/20
10

$5,000

$808

$15,000
&
$100,000

$808
$332

$840

$750

Amount
over
Contrib
ution
Limit
$4,968

& $0

$750

Richard Newman is married to Horne’s sister. Accordingly,
his contributions are “family contributions” under A.R.S. § 16901(10) and thus count as “personal monies” under A.R.S. § 16901(18)(d).

6

A140
z
Fife
10/27/20 $500
$849
Symingt 10
on
Steven
10/28/2010 $5,000
$840
Ellman
Mark
10/28/2010 $5,000 $840
Goldman
RSLC
10/22/2010 $350,0 $0
00

$500
$5,000
$5,000
$349,160

Sources: Exhibit 5, BLA Amended 2010 Post-General
Election Report; Exhibit 17, BLA Contributions:
Exhibit 18, Horne Exploratory Committee Amended
2010 January 31st Report: Exhibit 19, tom Horne for
Attorney General Amended 2010 June 30th Report:
Exhibit 20, Tom Horne for Attorney General
Amended 2010 Pre-Primary Election Report; Exhibit
21, Tom Horne for Attorney General Amended 2010
Post-Primary Election Report; and Exhibit 22, Tom
Horne for Attorney General Amended 2010 PostGeneral Election Report.
In addition, BLA received three contributions:
NCP Finance Limited and Texas Loan Corporation
each gave $15,000 and E.D. Marshall, Inc gave
$2,000. Exhibit 5, BLA Amended 2010 Post-General
Election Report and Exhibit 17, BLA Contributions.
Those contributions are also deemed to be
contributions from corporations. A.R.S § 16-919(A).
Therefore, as to Horne, the corporate contributions
were entirely unlawful.
Finally, both BLA and the Horne Campaign
Filed inaccurate Post-General Election Reports
because they did not correctly reflect that BLA’s

A141
expenditures were in-kind contributions and
corresponding expenditures by the Horne Campaign.
III. Order
This Order is issued pursuant to A.R.S § 16924(A). Horne, Winn, the Horne Campaign, and BLA
Have twenty day from the date of issuance to come
into compliance. Id
Horne and the Horne Campaign are ordered
to amend their 2010 Post-General election report to
include the expenditures made by BLA. These
expenditures are deemed in-kind contributions and
corresponding expenditures by A.R.S § 16-917(C).
Winn and BLA are similarly ordered to amend their
2010 Post-General Election Report to reflect the
coordinated nature of BLA’s expenditures.
Horne and the Horne Campaign are ordered
to refund the amount of the deemed in-kind
contributions in excess of the appropriate limits to
the person or organization that made the
contribution. Table 1, above, details the specific
amounts that exceed those limits. In addition, Horne
and the Horne Campaign are ordered to fully refund
the in-kind contributions from corporations, because
they are unlawful in their entirety.
If Horne, Winn, the Horne Campaign, and/or
BLA fail to take the ordered corrective action within
twenty days, this Office will issue an Order
Assessing a Civil Penalty pursuant to A.R.S § 16924(B). The violation of the contribution limits
carries a civil penalty of three times the amount of
money of the violation. A.R.S § 16-905(J).

A142
NOTICE
You may request a hearing to contest this
order pursuant to A.R.S. § 16-924 by submitting a
written request for a hearing by 5:00 p.m. no later
than twenty days from the date of this Order to:
Sheila Sullivan Polk
Yavapai County Attorney
255 East Gurley Street
Prescott, Arizona 86301
You may request an informal settlement
conference pursuant to A.R.S. § 41-1092.06.
Individuals
with
disabilities
may
request
accommodation during an informal settlement
conference by contacting Maggie Robertson, (928)
771-3344. Requests should be made as early as
possible to allow time to arrange the accommodation.
RESPECTFULLY SUBMITTED this 17th day
of October, 2013
By:
SHEILA SULLIVAN POLK
YAVAPAI COUNTY ATTORNEY
COPIES of the foregoing MAILED this
17th day of October, 2012 to:
Ken Bennett
Arizona Secretary of State
1700 W. Washington Street, 7th Flr
Phoenix, AZ 85007

A143
Michael Kimerer, Esq.
Kimerer & Derrick, Esq.
221 East Indianola Avenue
Phoenix, AZ 85012
Counsel for Tom Horne and Horne for Attorney General
Timothy A. LaSota, Esq.
Tiffany and Bosco, P.A.
Camelback Esplanade II, Third Floor
2525 East Camelback Road
Phoenix, Arizona 85016
Counsel for Kathleen Winn and BLA
By: /s/ Maggie Robertson

